No. 19-563

In the Supreme Court of the United States
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
v.
PATRICK J. COLLINS, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR THE FEDERAL PARTIES

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
VIVEK SURI
Assistant to the Solicitor
General
MARK B. STERN
ABBY C. WRIGHT
GERARD SINZDAK
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

During the financial crisis in 2008, the Director of the
Federal Housing Finance Agency (FHFA) exercised
his authority under a federal statute to appoint FHFA
as conservator of Fannie Mae and Freddie Mac. FHFA,
as conservator, negotiated agreements with the Department of the Treasury under which Treasury committed
to investing billions of dollars in the enterprises in return for compensation consisting, in part, of dividends
tied to the amount invested. In 2012, after numerous
quarters in which the enterprises’ dividend obligations
exceeded their total earnings—causing the enterprises
to draw additional capital from Treasury just to pay dividends to Treasury—FHFA and Treasury negotiated
the Third Amendment to their agreements. The Third
Amendment replaced the fixed dividends with variable
quarterly dividends tied to the enterprises’ net worth.
The questions presented are:
1. Whether the statute’s succession clause—which
vests in FHFA, as conservator, the shareholders’
“rights * * * with respect to the [enterprises] and
the[ir] assets,” including the right to bring derivative
suits on behalf of the enterprises, 12 U.S.C.
4617(b)(2)(A)(i)—precludes shareholders from challenging FHFA’s adoption of the Third Amendment.
2. Whether the statute’s anti-injunction clause—
which prohibits courts from taking any action that
would “restrain or affect the exercise of powers or functions of the Agency as a conservator,” 12 U.S.C.
4617(f )—precludes judicial invalidation of the Third
Amendment.

(I)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions involved ...................................................... 1
Statement:
A. Factual background .................................................. 2
B. Proceedings below..................................................... 7
Summary of argument ............................................................... 14
Argument..................................................................................... 17
I. The succession clause bars the shareholders’
challenge to the Third Amendment ............................. 18
A. The shareholders’ challenge to the Third
Amendment falls within the scope of the
succession clause ..................................................... 18
1. The succession clause precludes
shareholders from bringing derivative
claims during a conservatorship ..................... 18
2. A claim is derivative if the corporation
suffered the alleged harm and would
receive the recovery ......................................... 20
3. The shareholders’ challenge to the Third
Amendment is a derivative claim .................... 22
B. The APA does not convert the shareholders’
suit into a direct claim............................................. 25
C. There is no “conflict of interest” exception to
the succession clause............................................... 29
II. The anti-injunction clause also bars the
shareholders’ challenge to the Third Amendment ..... 33
A. The anti-injunction clause bars the
shareholders’ claim because the claim
challenges the exercise of conservatorship
powers granted by the Recovery Act.................... 33
1. Congress granted the conservator broad
powers ................................................................ 34

(III)

IV
Table of Contents—Continued:

Page

2. FHFA as conservator exercised its broad
statutory powers in agreeing to the Third
Amendment ....................................................... 37
B. The court of appeals erroneously imposed
several atextual limits on FHFA’s
conservatorship powers .......................................... 42
1. The Recovery Act’s provisions on
receivership do not preclude the Third
Amendment ....................................................... 42
2. The common-law restrictions on
conservatorships do not preclude the Third
Amendment ....................................................... 45
3. The shareholders’ allegations about the
purposes and effects of the Third
Amendment do not invalidate the
Amendment ....................................................... 46
Conclusion ................................................................................... 50
Appendix — Statutory provisions ........................................... 1a
TABLE OF AUTHORITIES

Cases:
Baltimore National Bank v. State Tax Commission,
297 U.S. 209 (1936).............................................................. 30
Bixler v. Foster, 596 F.3d 751 (10th Cir. 2010) ................... 28
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682
(2014) .................................................................................... 29
Central Bank of Denver, N. A. v. First Interstate
Bank of Denver, N. A., 511 U.S. 164 (1994) ..................... 32
Clarke v. Securities Industry Ass’n, 479 U.S. 388
(1987) .............................................................................. 26, 28
Cohen v. Beneficial Industrial Loan Corp.,
337 U.S. 541 (1949).............................................................. 31
Daily Income Fund, Inc. v. Fox, 464 U.S. 523 (1984) ....... 19

V
Cases—Continued:

Page

Darby v. Cisneros, 509 U.S. 137 (1993) ............................... 27
Davenport v. Dows, 85 U.S. (18 Wall.) 626 (1874) .............. 21
Delta Savings Bank v. United States, 265 F.3d 1017
(9th Cir. 2001), cert. denied, 534 U.S. 1082 (2002)........... 31
Domino’s Pizza, Inc. v. McDonald, 546 U.S. 470
(2006) .................................................................................... 27
El Paso Pipeline GP Co. v. Brinckerhoff, 152 A.3d
1248 (Del. 2016) ................................................................... 21
Encino Motorcars, LLC v. Navarro, 138 S. Ct. 1134
(2018) .................................................................................... 45
First Hartford Corp. Pension Plan & Trust v.
United States, 194 F.3d 1279 (Fed. Cir. 1999) ................. 31
Franchise Tax Board v. Alcan Aluminium Ltd.,
493 U.S. 331 (1990)........................................................ 19, 21
Humphrey’s Executor v. United States,
295 U.S. 602 (1935).............................................................. 12
Jacobs v. FHFA, 908 F.3d 884 (3d Cir.
2018) ....................................................... 33, 36, 39, 40, 41, 49
Jennings v. Rodriguez, 138 S. Ct. 830 (2018) ..................... 30
Jett v. Dallas Independent School District,
491 U.S. 701 (1989).............................................................. 27
Kamen v. Kemper Financial Services, Inc.,
500 U.S. 90 (1991) ............................................................... 19
Koster v. (American) Lumbermens Mutual
Casualty Co., 330 U.S. 518 (1947 ) ............................... 19, 20
Lightfoot v. Cendant Mortgage Corp., 137 S. Ct. 553
(2017) .................................................................................... 32
Little v. Cooke, 652 S.E.2d 129 (Va. 2007) ........................... 21
Milner v. Department of the Navy, 562 U.S. 562
(2011) .................................................................................... 31
Nken v. Holder, 556 U.S. 418 (2009) .................................... 36
O’Melveny & Myers v. FDIC, 512 U.S. 79 (1994) .............. 20

VI
Cases—Continued:

Page

Perry Capital LLC v. Lew, 70 F. Supp. 3d 208,
(D.D.C. 2014), aff ’d in part and remanded in
part, 864 F.3d 591 (D.C. Cir. 2017), cert. denied,
138 S. Ct. 978 (2018) ........................................................... 31
Perry Capital LLC v. Mnuchin, 864 F.3d 591
(D.C. Cir. 2017), cert. denied, 138 S. Ct. 978
(2018) ........................................................................... passim
Roberts v. FHFA, 889 F.3d 397 (7th Cir. 2018) ......... passim
Robinson v. FHFA, 876 F.3d 220 (6th Cir. 2017) ........ 34, 47
Russello v. United States, 464 U.S. 16 (1983) ..................... 47
Saxton v. FHFA, 901 F.3d 954 (8th Cir.
2018) ........................................................ 34, 36, 40, 41, 42, 49
Simmons v. Miller, 544 S.E.2d 666 (Va. 2001) ................... 21
Tellabs, Inc. v. Makor Issues & Rights, Ltd.,
551 U.S. 308 (2007)................................................................ 2
Tooley v. Donaldson, Lufkin, & Jenrette, Inc.,
845 A.2d 1031 (Del. 2004) ....................................... 21, 22, 23
Trump v. Hawaii, 138 S. Ct. 2392 (2018) ............................ 44
United States v. Gonzales, 520 U.S. 1 (1997) ...................... 30
Constitution, statutes, and regulation:
U.S. Const. Art. II ................................................................... 8
Administrative Procedure Act, 5 U.S.C. 701 et seq.............. 7
5 U.S.C. 702 .................................................... 25, 26, 27, 1a
Financial Institutions Reform, Recovery, and
Enforcement Act of 1989, 12 U.S.C. 1811 et seq. ............. 31
12 U.S.C. 1821(c)(13)(B)(ii) ............................................. 36
Housing and Economic Recovery Act of 2008,
Pub. L. No. 110-289, 122 Stat. 2654 (12 U.S.C. 4501
et seq.)..................................................................................... 3
12 U.S.C. 4501(1) ............................................... 36, 46, 10a
12 U.S.C. 4501(2) ........................................... 2, 36, 46, 10a

VII
Statutes and regulation—Continued:

Page

12 U.S.C. 4501(7) ............................................... 36, 46, 11a
12 U.S.C. 4502(8)(A) ........................................................ 35
12 U.S.C. 4511 ............................................................ 3, 11a
12 U.S.C. 4512(a) ....................................................... 3, 12a
12 U.S.C. 4512(b)(1) .................................................. 3, 13a
12 U.S.C. 4512(b)(2) .................................................. 3, 13a
12 U.S.C. 4512(f )........................................................ 3, 16a
12 U.S.C. 4617 ............................................................ 5, 17a
12 U.S.C. 4617(a)(2) ..................................3, 34, 36, 45, 17a
12 U.S.C. 4617(a)(5)(A) ....................................... 5, 30, 21a
12 U.S.C. 4617(a)(6) ................................................. 47, 22a
12 U.S.C. 4617(b) ................................................. 3, 43, 22a
12 U.S.C. 4617(b)(2)(A) ............................5, 14, 15, 43, 23a
12 U.S.C. 4617(b)(2)(A)(i) ...............................passim, 23a
12 U.S.C. 4617(b)(2)(B) ........................................... 15, 23a
12 U.S.C. 4617(b)(2)(B)(i) ........................4, 34, 35, 40, 23a
12 U.S.C. 4617(b)(2)(B)(iii) ..................................... 40, 23a
12 U.S.C. 4617(b)(2)(B)(iv) ..................................... 43, 23a
12 U.S.C. 4617(b)(2)(D) ................ 4, 15, 34, 39, 43, 48, 24a
12 U.S.C. 4617(b)(2)(E) ....................................... 4, 43, 24a
12 U.S.C. 4617(b)(2)(G) ...................... 4, 15, 35, 40, 43, 25a
12 U.S.C. 4617(b)(2)(J) ............................................ 15, 26a
12 U.S.C. 4617(b) (2)(J)(ii) ........................4, 30, 36, 46, 26a
12 U.S.C. 4617(b)(3)-(9)............................................. 4, 27a
12 U.S.C. 4617(b)(15)(C)(i)-(ii) ............................... 47, 43a
12 U.S.C. 4617(f )............................. 5, 7, 15, 30, 33, 49, 75a
12 U.S.C. 4617(i)(12)................................................ 47, 89a
Racketeer Influenced and Corrupt Organizations Act
(RICO), 18 U.S.C. 1964(c) .................................................. 27
12 U.S.C. 1455(l) ................................................................ 7, 2a
12 U.S.C. 1455(l)(1)(A) ...................................................... 4, 2a

VIII
Statutes and regulation—Continued:

Page

12 U.S.C. 1455(l)(1)(B) .................................................... 37, 2a
12 U.S.C. 1455(l)(1)(B)(iii) .............................................. 41, 2a
12 U.S.C. 1455(l)(1)(C)(vi)............................................... 37, 3a
12 U.S.C. 1455(l)(2)(A) ...................................................... 4, 4a
12 U.S.C. 1455(l)(2)(D) ...................................................... 4, 5a
12 U.S.C. 1719(g) ............................................................... 7, 6a
12 U.S.C. 1719(g)(1)(A)-(B) .............................................. 4, 6a
12 U.S.C. 1719(g)(1)(B) ............................................. 37, 41, 6a
12 U.S.C. 1719(g)(1)(C)(vi).............................................. 37, 7a
42 U.S.C. 1981(a) ................................................................... 27
12 C.F.R. 1239.3(b) ................................................................ 19
Miscellaneous:
Black’s Law Dictionary (11th ed. 2019) ............................. 43
12B William Meade Fletcher, Fletcher Cyclopedia of
the Law of Corporations (rev. 2017) ..........21, 22, 23, 25, 26
Antonin Scalia & Bryan A. Garner, Reading Law:
The Interpretation of Legal Texts (2012) ......................... 32
19 Charles Alan Wright et al., Federal Practice and
Procedure (update Apr. 2020) ........................................... 19

In the Supreme Court of the United States
No. 19-563
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
v.
PATRICK J. COLLINS, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR THE FEDERAL PARTIES
OPINIONS BELOW

The opinion of the en banc court of appeals (Pet. App.
1a-147a) is reported at 938 F.3d 553. The opinion of the
court of appeals panel (Pet. App. 150a-253a) is reported
at 896 F.3d 640. The memorandum and order of the district court (Pet. App. 254a-267a) are reported at 254
F. Supp. 3d 841.
JURISDICTION

The judgment of the court of appeals was entered on
September 6, 2019. The petition for a writ of certiorari
was filed on October 25, 2019. The petition for a writ of
certiorari was granted on July 9, 2020. The jurisdiction
of this Court rests on 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Relevant statutory provisions are reprinted in an appendix to this brief. App., infra, 1a-91a.
(1)

2
STATEMENT
A. Factual Background

This case comes to the Court on a motion to dismiss
the complaint. Pet. App. 6a. We therefore assume the
truth of the well-pleaded allegations in the complaint
and rely on the “sources courts ordinarily examine
when ruling on Rule 12(b)(6) motions to dismiss”—
namely, “the complaint,” “documents incorporated into
the complaint by reference,” and “matters of which a
court may take judicial notice.” Tellabs, Inc. v. Makor
Issues & Rights, Ltd., 551 U.S. 308, 322 (2007).
1. Congress created the Federal National Mortgage
Association (Fannie Mae) in 1938 and the Federal
Home Loan Mortgage Corporation (Freddie Mac) in
1970. J.A. 44. These enterprises are publicly traded
companies with private shareholders, but they operate
under congressional charters, serve “public missions,”
and are “important to providing housing in the United
States and the health of the Nation’s economy.”
12 U.S.C. 4501(2). In particular, they provide liquidity
and stability to the national mortgage market. J.A. 25.
They accomplish those objectives primarily by buying
home loans from private lenders, pooling some of those
loans into mortgage-backed securities, and selling the
securities to private investors. J.A. 44. By buying loans
from lenders, the enterprises provide the lenders with
additional funds that the lenders can then use to make
additional loans; and by bundling loans into securities
backed by the enterprises’ credit guarantees, the enterprises attract investors who might not otherwise have
invested in mortgages—thereby expanding the pool of
funds available for housing loans.

3
In 2008, the enterprises suffered overwhelming
losses because of a decline in home prices and an increase in defaults on home loans. J.A. 45. The enterprises lost more in 2008 ($108 billion) than they had
earned in the previous 37 years combined ($95 billion).
Pet. App. 6a-7a. At the time, the enterprises’ mortgage
portfolios were worth approximately $5 trillion, or
nearly half the national mortgage market. Id. at 6a.
2. Recognizing that the failure of Fannie Mae and
Freddie Mac would have had catastrophic effects for
the national housing market and the economy, Congress
enacted the Housing and Economic Recovery Act of
2008 (Recovery Act or Act), Pub. L. No. 110-289, 122
Stat. 2654 (12 U.S.C. 4501 et seq.). Through the Recovery Act, Congress created the Federal Housing Finance
Agency (FHFA or Agency) to regulate the enterprises.
12 U.S.C. 4511. FHFA is headed by a single Director,
appointed by the President with the advice and consent
of the Senate. 12 U.S.C. 4512(a) and (b)(1). The Director serves a five-year term, but the President may remove him sooner “for cause.” 12 U.S.C. 4512(b)(2). If
the office of Director becomes vacant, the President
may designate one of three FHFA Deputy Directors to
serve as Acting Director. 12 U.S.C. 4512(f ).
The Recovery Act provides that the Director may, at
his “discretion,” appoint FHFA as “conservator or receiver” for the enterprises “for the purpose of reorganizing, rehabilitating, or winding up the[ir] affairs.”
12 U.S.C. 4617(a)(2). As conservator, FHFA obtains
broad powers concerning the enterprises. 12 U.S.C.
4617(b).
Most importantly, FHFA “may, as conservator, take
such action as may be—(i) necessary to put the [enter-

4
prises] in a sound and solvent condition; and (ii) appropriate to carry on the business of the [enterprises] and
preserve and conserve the assets and property of the
[enterprises].” 12 U.S.C. 4617(b)(2)(D). The Act grants
FHFA a broad range of tools with which it can accomplish that mission. For example, under the Act’s succession clause, FHFA “immediately succeed[s]” to “all
rights, titles, powers, and privileges of the [enterprises]
and of any stockholder, officer, or director of such [enterprises] with respect to the [enterprises] and the[ir]
assets.” 12 U.S.C. 4617(b)(2)(A)(i). Under additional
provisions, FHFA also may “take over the assets of and
operate” the enterprises, “conduct all business” of the enterprises, and “transfer or sell any asset or liability” of
the enterprises. 12 U.S.C. 4617(b)(2)(B)(i) and (G). And
in exercising all of those powers, FHFA may act “in the
best interests of the [enterprises] or the Agency.”
12 U.S.C. 4617(b)(2)(J)(ii).
The Recovery Act also grants FHFA broad powers
over the enterprises when appointed as receiver to liquidate their assets. 12 U.S.C. 4617(b)(2)(E). But the
Act imposes on FHFA various procedural requirements
in the liquidation process. 12 U.S.C. 4617(b)(3)-(9).
The Recovery Act separately grants the Department
of the Treasury “temporary” authority to “purchase any
obligations and other securities issued by” the enterprises and to “exercise any rights received in connection with such purchases”—but the terms of the purchase must “protect the taxpayer” and “provide stability
to the financial markets.” 12 U.S.C. 1455(l)(1)(A), (2)(A),
and (D), 1719(g)(1)(A)-(B) (capitalization and emphasis
omitted). That authorization “made it possible for
Treasury to buy large amounts of Fannie and Freddie
stock, and thereby infuse them with massive amounts of

5
capital to ensure their continued liquidity and stability.”
Perry Capital LLC v. Mnuchin, 864 F.3d 591, 600 (D.C.
Cir. 2017), cert. denied, 138 S. Ct. 978 (2018).
Finally, the Recovery Act limits judicial review of
FHFA’s actions. It provides that the enterprises may
sue “for an order requiring the Agency to remove itself
as conservator or receiver” only if they challenge the
initial appointment “within 30 days of such appointment.” 12 U.S.C. 4617(a)(5)(A). Once the appointment
can no longer be challenged, the Act’s succession clause
vests in FHFA itself both the enterprises’ rights to
bring suit and the shareholders’ rights to sue on behalf
of the enterprises. 12 U.S.C. 4617(b)(2)(A). The Act
further provides that, “[e]xcept as provided in [Section
4617] or at the request of the Director, no court may
take any action to restrain or affect the exercise of powers or functions of the Agency as a conservator or a receiver.” 12 U.S.C. 4617(f ).
3. On September 6, 2008, FHFA appointed itself as
conservator of both Fannie Mae and Freddie Mac. J.A.
27. One day later, FHFA, as conservator, entered into
agreements with Treasury under which Treasury committed to infuse up to $100 billion into each enterprise.
J.A. 53-62. For that massive support, the agreements
provided that Treasury would receive various forms of
compensation—including preferred stock, dividends in
return for the capital actually invested, periodic fees in
return for the outstanding capital commitment, warrants to purchase nearly 80% of the enterprises’ common stock, and priority over other stockholders in recouping Treasury’s investment if the enterprises were
later liquidated. J.A. 56-61. Critically, the size of the
dividends each enterprise owed was tied to the amount

6
of capital Treasury had invested in the enterprise; it did
not vary with the enterprise’s profits. J.A. 57.
Treasury’s initial commitment to provide up to $100
billion to each enterprise soon proved inadequate. In
May 2009, FHFA and Treasury amended the agreements to increase Treasury’s commitment to $200 billion for each enterprise. J.A. 62. Then, in December
2009, FHFA and Treasury again amended the agreements. Ibid. The amendment permitted unlimited
draws through the end of 2012 without regard to the cap
on the available commitment; after 2012, the cap on the
remaining commitment would be reinstated. Ibid.
Between 2009 and 2011, the dividends that the enterprises owed to Treasury repeatedly exceeded their
quarterly earnings by billions of dollars. JA. 71, 74.
The enterprises drew more money from Treasury just
to pay Treasury’s dividends. J.A. 66. Under the governing dividend formula, however, drawing more money
from Treasury meant increasing the size of future dividends. J.A. 57. And because the size of Treasury’s capital commitment was scheduled to become fixed at the
end of 2012, continuing that cycle—drawing more
money to pay dividends, in turn increasing the future
dividends—would have reduced the remaining commitment available. By early 2012, the dividends that the
enterprises collectively owed Treasury had reached
around $19 billion per year. J.A. 71, 74. Further, although Treasury had refrained from collecting commitment fees in 2011 and 2012 under a clause permitting
waiver “based on adverse conditions in the United
States mortgage market,” J.A. 220, it retained the right
to collect those potentially sizable fees in the future,
J.A. 86.

7
In August 2012, Treasury and FHFA (led at the time
by Acting Director Edward DeMarco) amended the
purchase agreements a third time. J.A. 36, 76-78. The
Third Amendment replaced the previous fixed dividend
(tied to the size of Treasury’s investment) with a variable dividend (tied to the enterprises’ net worth). J.A.
83. Under the new formula, Treasury’s dividend each
quarter would equal the amount, if any, by which the
enterprises’ net worth exceeded a specified capital reserve. Ibid. Setting aside the capital reserve, “[i]n simple terms, the Third Amendment requires Fannie and
Freddie to pay quarterly to Treasury a dividend equal
to their net worth—however much or little that might
be. Through that new dividend formula, Fannie and
Freddie would never again [draw more money from
Treasury] just to make their quarterly dividend payments, thereby precluding any dividend-driven downward debt spiral. But neither would Fannie or Freddie
be able to accrue capital in good quarters.” Perry Capital, 864 F.3d at 602. The Amendment also suspended
the periodic commitment fees that potentially would be
owed to Treasury going forward. J.A. 86.
B. Proceedings Below

1. In October 2016, over four years after Treasury
and FHFA agreed to the Third Amendment, three individual shareholders (petitioners in No. 19-422, respondents in No. 19-563) challenged the Amendment in federal
district court. Pet. App. 164a; see J.A. 24-119. The
shareholders raised three statutory claims: that FHFA
had exceeded its authority under 12 U.S.C. 4617(f ) as
conservator, that Treasury had exceeded its authority
under 12 U.S.C. 1455(l) and 1719(g) to buy securities,
and that Treasury had acted arbitrarily and capriciously in violation of the Administrative Procedure Act

8
(APA), 5 U.S.C. 701 et seq. The shareholders also claimed
that the Recovery Act’s provision making FHFA’s single
Director removable only for cause violates Article II of
the Constitution.
2. The district court granted FHFA’s and Treasury’s motions to dismiss the statutory claims, granted
FHFA’s motion for summary judgment on the constitutional claim, and denied the shareholders’ cross-motion
for summary judgment on the constitutional claim. Pet.
App. 254a-267a. The court first held that the “adoption
of the Third Amendment falls within FHFA’s statutory
conservatorship powers.” Id. at 262a (citation omitted).
The court then rejected the shareholders’ constitutional
claims, reasoning that “a ‘for cause’ removal provision”
complies with the Constitution even where the provision
protects “a single director” rather than “a multimember
board.” Id. at 266a.
3. A fractured panel of the court of appeals affirmed
in part and reversed in part. Pet. App. 150a-253a. In a
per curiam opinion, the court first affirmed the district
court’s dismissal of the shareholders’ statutory claims.
Id. at 167a. The court of appeals explained that “the
D.C., Sixth, and Seventh Circuits ha[d] all rejected”
statutory challenges to the Third Amendment, and it
adopted “the same well-reasoned basis common to those
courts’ opinions.” Ibid. Turning to the constitutional
claim, the court concluded that the Recovery Act violated the Constitution by making FHFA’s single Director removable only for cause, but that the proper remedy for that violation was to declare unconstitutional
and sever the statutory provision addressing removal,
not to invalidate the Amendment. Id. at 167a-216a.
Judge Haynes joined the panel’s opinion in full. Pet.
App. 150a n.1. Chief Judge Stewart joined the panel’s

9
statutory holding, but dissented from its constitutional
holding. Id. at 217a-221a. Judge Willett joined the
panel’s constitutional holding, but dissented from its
statutory holding. Id. at 222a-253a.
4. The court of appeals, rehearing the case en banc,
affirmed in part and reversed in part. Pet. App. 1a147a. A majority of the en banc court reversed the dismissal of the statutory claim against FHFA, while affirming the dismissal of the statutory claims against
Treasury. Id. at 18a-51a. A different majority held that
FHFA’s structure violated the Constitution. Id. at 52a64a, 65a n.1. A third majority held that the appropriate
remedy for the constitutional violation was to declare
unconstitutional and sever the removal provision, but
not to invalidate the Third Amendment. Id. at 65a-72a.
a. In an opinion by Judge Willett for nine of the 16
judges, the court of appeals addressed the shareholders’ statutory claims. Pet. App. 18a-51a. The court reversed the dismissal of the shareholders’ statutory
claim against FHFA, remanding the case so that the
district court could determine “if fact issues require
trial or if summary judgment should be granted.” Id. at
51a. But the court of appeals affirmed the dismissal of
the shareholders’ statutory claims against Treasury.
Id. at 32a-33a.
The court of appeals first rejected the government’s
contention that the Recovery Act’s anti-injunction
clause (12 U.S.C. 4617(f )) forecloses the shareholders’
statutory claims. Pet. App. 18a-25a. The court reasoned that the clause “distinguishes improperly exercising a power (not restrainable) from exercising one
that was never authorized (restrainable).” Id. at 19a.
The court thus ruled that “whether the anti-injunction
provision bars relief * * * depends entirely on whether

10
the [Third Amendment] exceeded FHFA’s statutory
conservatorship powers.” Id. at 25a.
Turning to that question, the court of appeals held
that the shareholders “stated a plausible claim that the
Third Amendment exceeded statutory authority.” Pet.
App. 46a. The court reasoned that FHFA, as conservator, had the authority to preserve and conserve the enterprises’ assets, but that only a receiver, not a conservator, had the authority to “liquidate” those assets. Id.
at 37a; see id. at 33a-45a. Relying on the shareholders’
allegations, the court concluded that, in adopting the
Amendment, FHFA improperly “abandoned rehabilitation in favor of ‘winding down’ ” the enterprises. Id. at
46a-47a. The court emphasized that the Amendment
grants Treasury “a right to the [enterprises’] net worth
in perpetuity” and that the shareholders’ complaint included allegations suggesting (in the court’s view) that
FHFA designed the Amendment with the intent “to deprive Fannie and Freddie of all their capital.” Id. at 47a,
50a (brackets and citation omitted).
The court of appeals also rejected the government’s
argument that the shareholders’ statutory claims were
independently foreclosed by the Recovery Act’s succession clause (12 U.S.C. 4617(b)(2)(A)(i)). See Pet. App.
25a-33a. The court acknowledged that the succession
clause prohibits shareholders from bringing derivative
claims on behalf of the enterprises while the enterprises
remain in conservatorship. Id. at 26a. The court concluded, however, that the clause did not preclude the
shareholders from bringing direct claims on their own
behalf against FHFA, and that the shareholders’ challenge to the Third Amendment was a direct claim, not a
derivative one. Id. at 27a-32a. The court reasoned that
FHFA’s acts had allegedly injured the shareholders as

11
“residual claimants of [the enterprises’] value” and that
the shareholders had brought their claims under the
APA. Id. at 29a.
In contrast, the court of appeals affirmed the district
court’s dismissal of the shareholders’ claims that the
Third Amendment exceeded Treasury’s authority and
was otherwise arbitrary and capricious. Pet. App. 32a33a. The court concluded that the shareholders were
outside the zone of interests protected by the statutory
provisions they invoked and that their APA claims
based on those provisions were accordingly barred.
Ibid.
Judge Haynes, writing for the remaining seven
judges, dissented from the court of appeals’ reversal of
the dismissal of the statutory claim against FHFA. Pet.
App. 108a-113a. The dissenters agreed with the “five
other circuits” that had rejected statutory challenges to
the Third Amendment. Id. at 108a. Given the Recovery
Act’s “extensive” grant of authority, the dissenters concluded that FHFA “acted within its statutory powers
when it adopted” the Amendment, and that the antiinjunction clause accordingly barred the shareholders’
statutory claims. Ibid.
b. In an opinion by Judge Willett, writing for the
same nine judges who reversed the dismissal of the statutory claim against FHFA, the court of appeals held
that the shareholders were entitled to summary judgment on the merits of their constitutional claim challenging FHFA’s structure. Pet. App. 52a-64a.
The court of appeals first concluded that the shareholders had standing to challenge FHFA’s structure,
reasoning that the shareholders had suffered an injury
in fact (FHFA’s “pumping large profits to Treasury instead of restoring the [enterprises’] capital structure”)

12
that was “traceable to the removal protection” and that
was redressable by “vacatur” of the Third Amendment.
Pet. App. 53a-54a. The court also concluded that the
succession clause did not bar the constitutional challenge, reasoning that the clause did not speak with the
clarity needed to foreclose judicial review of a constitutional claim. Id. at 55a-56a.
Turning to the merits, the court of appeals held that
the Act’s “for-cause removal protection infringes Article II.” Pet. App. 56a. The court acknowledged that
this Court had upheld a for-cause removal provision in
Humphrey’s Executor v. United States, 295 U.S. 602
(1935), but concluded that the “exception” to the President’s removal power recognized in that case “applie[s]
only to multi-member bodies of experts,” not to FHFA’s
single Director. Pet. App. 56a.
Judges Southwick, Haynes, and Graves concurred in
that judgment. Pet. App. 65a n.1. In a joint opinion
concurring in part and dissenting in part, Judges Oldham and Ho explained that the constitutional holding
accorded with the Constitution’s original meaning and
with precedent. Id. at 76a-107a. Judge Higginson, writing for four judges, dissented from the constitutional
holding on the merits. Id. at 114a-127a. Judge Costa,
writing for two judges, dissented from the constitutional holding on the additional ground that the shareholders lacked standing to challenge the constitutionality of FHFA’s structure. Id. at 128a-139a.
c. In an opinion by Judge Haynes for a different majority of nine judges, the court of appeals held that the
appropriate remedy for the constitutional violation was
to declare unconstitutional and sever the provision governing the removal of FHFA’s Director, but not to invalidate the Third Amendment. Pet. App. 65a-72a.

13
The court of appeals emphasized that “the President
had adequate oversight” of the adoption of the Third
Amendment: the Secretary of the Treasury “was subject to at will removal by the President,” meaning that
the President “had plenary authority to stop the adoption of the [Amendment]” if he wanted to do so. Pet.
App. 69a. The court concluded: “This is thus a unique
situation where we need not speculate about whether
appropriate presidential oversight would have stopped
the [Amendment]. We know that the President, acting
through the Secretary of the Treasury, could have
stopped it but did not.” Id. at 69a-70a.
The court of appeals also observed that, although the
shareholders sought invalidation of the Third Amendment, they did not seek invalidation of any other parts
of the agreements. Pet. App. 67a. That, the court explained, was “because the rest of the deal [wa]s a pretty
good one for them: who would not want a virtually unlimited line of credit from Treasury?” Ibid. The court
concluded that the shareholders were not entitled to “pick
and choose among remedies based on their preferences,”
unwinding the parts of the agreements that they dislike
but not the parts that they prefer. Ibid.
Judge Willett, writing for seven judges, dissented
from that remedial holding. Pet. App. 140a-147a.
Judges Oldham and Ho, in a joint opinion concurring in
part and dissenting in part, asserted that the court of
appeals’ remedial holding violated the Constitution. Id.
at 101a-107a.

14
SUMMARY OF ARGUMENT

After the 2008 financial crisis, FHFA and Treasury
negotiated an agreement under which Treasury would
provide capital to Fannie Mae and Freddie Mac. In the
Third Amendment, FHFA and Treasury renegotiated
the formula for calculating the dividends and fees owed
to Treasury for that capital investment and commitment. The shareholders claim that the Amendment violates the Recovery Act, but two separate provisions of
the Act foreclose that challenge: the succession clause
and the anti-injunction clause.
I. The succession clause provides that FHFA, as
conservator or receiver, succeeds to “all rights, titles,
powers, and privileges” of the enterprises, their directors and officers, and their shareholders. 12 U.S.C.
4617(b)(2)(A). One of the traditional rights of a corporate shareholder is the right, in certain circumstances,
to bring a derivative suit—i.e., a suit on behalf of and
for the benefit of the corporation. It is clear and undisputed that the succession clause generally eliminates
the shareholders’ right to bring derivative suits during
a conservatorship.
Under well-established principles of the law of corporations, a suit is derivative if the corporation suffered
the alleged harm and would receive the recovery. The
shareholders’ challenge to the Third Amendment satisfies that test. The complaint alleges, at bottom, that the
Amendment harms the enterprises by requiring them to
turn over their net worth. And the relief sought in the
complaint—the invalidation of the Amendment’s dividend provision and the effective return of sums the enterprises have already paid—might put more money in
the enterprises’ coffers, but would not directly add any
money to the shareholders’ personal bank accounts.

15
The challenge to the Amendment is thus derivative, and
the succession clause bars it.
The court of appeals erred in holding that the succession clause does not bar the shareholders’ claim
simply because the shareholders have invoked the APA
cause of action. The APA’s right of review neither displaces separate limitations on review nor transforms
the claim asserted here from derivative to direct. The
shareholders also may not invoke a “conflict of interest”
exception to the succession clause. The text contains no
such exception, and the context refutes it.
II. The anti-injunction clause provides that, subject
to exceptions not at issue here, “no court may take any
action to restrain or affect the exercise of powers or
functions of the Agency as a conservator or a receiver.”
12 U.S.C. 4617(f ). FHFA exercises broad powers and
functions as conservator. The Recovery Act empowers
the conservator to take actions that “may be” “necessary” to put the enterprises “in a sound and solvent condition” and “appropriate” to “preserve and conserve
the[ir] assets and property.” 12 U.S.C. 4617(b)(2)(D).
In taking such actions, the conservator may use a wide
range of tools, including transferring or selling the enterprises’ assets. 12 U.S.C. 4617(b)(2)(A), (B), and (G).
And the conservator may exercise all of those powers to
serve the interests of the enterprises or of FHFA itself—
including the public interests they both serve—rather
than focusing on the shareholders’ interest in receiving
profits. 12 U.S.C. 4617(b)(2)(J).
The Third Amendment falls well within those statutory powers. At the time of the Amendment, the enterprises collectively owed an annual dividend to Treasury
of roughly $19 billion. The conservator had paid that

16
dividend in the past by drawing on Treasury’s commitment of capital to the enterprises, but that practice in
turn increased the future amount of the dividend. And
Treasury’s capital commitment would soon have become
capped, creating a possibility that the ever-increasing
dividend would have consumed the remainder of the
commitment backstopping the enterprises’ vital operations. In the Amendment, FHFA and Treasury converted the fixed dividend tied to the amount of capital
that Treasury had invested to a variable dividend tied
to the net worth of the enterprises, and also suspended
the periodic fee for the outstanding capital commitment. The new formula eliminated any need for the enterprises to draw on Treasury’s commitment in order to
pay their dividends, and it was permissible for the conservator to conclude that the Amendment may have
been appropriate to preserve and conserve the commitment and necessary to put the enterprises in a sound
and solvent condition. As the Amendment thus falls
within FHFA’s broad powers as conservator, the antiinjunction clause bars the shareholders’ challenge to it.
In reaching the contrary conclusion, the court of appeals broke from the five other courts of appeals that
have considered the question. The court did so only by
imposing a series of atextual constraints on FHFA’s
powers under the Recovery Act. FHFA’s power as conservator to adopt the Third Amendment was not foreclosed either by the Act’s separate authorization for a
receiver to liquidate the enterprises or by any commonlaw limits on conservators. Nor was it legally material
whether or not FHFA acted with proper motives or the
Amendment has (so far) harmed the enterprises more
than it has benefited them and the public.

17
ARGUMENT

After the 2008 financial crisis, FHFA entered into
agreements with Treasury under which Treasury provided hundreds of billions of dollars to rescue Fannie
Mae and Freddie Mac, in return for an annual dividend
tied to the amount of Treasury’s investment. By 2012,
the enterprises’ collective dividend had reached $19 billion per year, the enterprises had repeatedly drawn
money from Treasury’s capital commitment simply to
pay their dividends to Treasury, and the commitment
was about to become capped. In the Third Amendment,
FHFA and Treasury renegotiated the agreements’
terms, converting the fixed dividend to a variable dividend tied to the amount of the enterprises’ net worth
and suspending the periodic commitment fee. That
modification ensured that the enterprises’ need to pay
dividends would no longer cause them to draw on the
vital capital commitment.
Roughly four years after the Third Amendment,
three individual shareholders brought this suit, claiming that the Amendment improperly dissipated the enterprises’ assets and thus exceeded FHFA’s powers as
conservator. That claim fails for two independent reasons. First, the Recovery Act’s succession clause precludes shareholders from bringing derivative suits during a conservatorship, and the shareholders’ suit is a
paradigmatic example of a derivative suit, as it claims
an improper diminution of corporate assets and seeks a
restoration of those assets to the corporations. Second,
the Act’s anti-injunction clause precludes shareholders
from challenging FHFA’s exercise of its statutory powers as conservator, and FHFA’s renegotiation of the
dividend formula and commitment fee falls well within
those powers.

18
I. THE SUCCESSION CLAUSE BARS THE SHAREHOLDERS’ CHALLENGE TO THE THIRD AMENDMENT

The succession clause provides:
The Agency shall, as conservator or receiver, and by
operation of law, immediately succeed to * * * all
rights, titles, powers, and privileges of the regulated
entity, and of any stockholder, officer, or director of
such regulated entity with respect to the regulated
entity and the assets of the regulated entity[.]
12 U.S.C. 4617(b)(2)(A)(i). As shown below, the clause
vests in FHFA itself the shareholders’ right to sue for
injuries to the enterprises, and thus divests the shareholders of any right to bring their statutory claim. The
shareholders may not evade the succession clause by invoking the APA cause of action or by asserting an unwritten “conflict of interest” exception.
A. The Shareholders’ Challenge To The Third Amendment
Falls Within The Scope Of The Succession Clause

The parties and the court of appeals all recognize
that the succession clause precludes shareholders from
bringing derivative claims on behalf of the enterprises
during a conservatorship. A claim is derivative if it
rests on an allegation of harm to the corporation and the
relief sought would flow to the corporation. The shareholders’ statutory challenge to the Third Amendment is
plainly derivative under that test, and the succession
clause accordingly bars it.
1. The succession clause precludes shareholders from
bringing derivative claims during a conservatorship

The succession clause transfers the “rights, titles,
powers, and privileges” of the corporation, its directors,
and its shareholders to the conservator. 12 U.S.C.

19
4617(b)(2)(A)(i). Identifying those “rights, titles, powers, and privileges” requires looking to background
rules of the law of corporations. *
a. One of the traditional rights of a corporation is the
right to sue. In general, “the proper party to bring a
suit on behalf of a corporation is the corporation itself,
acting through its directors or a majority of its shareholders.” Daily Income Fund, Inc. v. Fox, 464 U.S. 523,
542 (1984). Under a doctrine known as the “shareholder
standing rule,” an individual shareholder has no right to
“initiat[e] actions to enforce the rights of the corporation.” Franchise Tax Board v. Alcan Aluminium Ltd.,
493 U.S. 331, 336 (1990).
An exception to the shareholder-standing rule,
known as the shareholder derivative suit, enables “a
single stockholder” to “sue in the corporation’s right”
where the directors and officers have “refused to pursue a remedy.” Koster v. (American) Lumbermens
Mutual Casualty Co., 330 U.S. 518, 522 (1947). “The
cause of action which such a plaintiff brings before the
Federal law governs “the rights and obligations of federally
chartered institutions.” 19 Charles Alan Wright et al., Federal
Practice and Procedure § 4515 (update Apr. 2020). In resolving
such federal issues, federal courts should “look to state law” for
guidance, rather than “ ‘fashion an entire body of federal corporate
law out of whole cloth.’ ” Kamen v. Kemper Financial Services,
Inc., 500 U.S. 90, 98-99 (1991) (citation omitted). Fannie Mae and
Freddie Mac have, in accordance with federal regulations, chosen
Delaware and Virginia law, respectively, to govern their corporate
affairs, to the extent such law is not inconsistent with federal law.
Roberts v. FHFA, 889 F.3d 397, 408-409 (7th Cir. 2018); 12 C.F.R.
1239.3(b). In this case, however, choice-of-law questions about
whether to apply federal law or state law, or about which State’s law
to apply, are ultimately immaterial; the relevant principles of corporation law are both well-established and widely accepted.
*

20
court is not his own but the corporation’s. It is the real
party in interest and he is allowed to act in protection of
its interest somewhat as a ‘next friend’ might do for an
individual.” Id. at 522-523 (footnote omitted).
b. Against that backdrop, the succession clause provides that FHFA, as conservator, succeeds to “all
rights, titles, powers, and privileges” of (1) “the regulated entity,” (2) its “officer[s]” and “director[s],” and
(3) its “stockholder[s],” “with respect to the regulated
entity and [its] assets.” 12 U.S.C. 4617(b)(2)(A)(i). That
means the conservator succeeds to, among other things,
the corporation’s right to litigate its claims. See O’Melveny & Myers v. FDIC, 512 U.S. 79, 86 (1994) (interpreting similarly worded clause in an earlier receivership statute). The conservator also succeeds to the directors’ general powers to manage corporate litigation.
Finally, and most relevant here, the conservator succeeds to the shareholders’ power to bring derivative
suits on behalf of the corporation.
Indeed, it is undisputed here that the succession
clause generally bars shareholders from bringing derivative suits during a conservatorship. The court of appeals accepted that “FHFA succeeded to derivative
claims.” Pet. App. 26a. The shareholders, too, admit
that the “Succession Clause applies * * * to certain derivative claims.” Shareholders C.A. Supp. Br. 47 (emphasis omitted). The parties instead dispute only
whether the shareholders’ claims are derivative and, if
so, whether they are implicitly exempt from the general
bar on derivative suits.
2. A claim is derivative if the corporation suffered the
alleged harm and would receive the recovery

The hornbook test of whether a shareholder’s suit is
derivative or direct turns on two questions: (1) “who

21
suffered the alleged harm” and (2) “who would receive
the benefit of any recovery.” 12B William Meade
Fletcher, Fletcher Cyclopedia of the Law of Corporations § 5911, at 572 (rev. 2017). If the corporation suffered the harm and would receive the recovery, the suit
is derivative; if the shareholder suffered the harm and
would receive the recovery, the suit is direct. Id. § 5911,
at 558-563.
That two-part test accords with this Court’s cases,
which indicate that a suit’s derivative character depends on whether the shareholder has “suffered direct
injuries,” Alcan, 493 U.S. at 336-337, and whether “[t]he
relief asked is on behalf of the corporation, not the individual shareholder,” Davenport v. Dows, 85 U.S. (18
Wall.) 626, 627 (1874). Notably, given the salience here
of Delaware and Virginia law (p. 19 n.*, supra), the test
has been adopted by the Supreme Court of Delaware
and is consistent with the decisions of the Supreme
Court of Virginia. See El Paso Pipeline GP Co. v.
Brinckerhoff, 152 A.3d 1248, 1260 (Del. 2016); Tooley v.
Donaldson, Lufkin, & Jenrette, Inc., 845 A.2d 1031,
1033 (Del. 2004); Little v. Cooke, 652 S.E.2d 129, 136
(Va. 2007); Simmons v. Miller, 544 S.E.2d 666, 674 (Va.
2001). The test also comports with the law of many
other States. See Fletcher § 5911. In parallel challenges to the Third Amendment, federal courts of appeals have used the test to determine whether the succession clause bars suits brought by the enterprises’
shareholders. Perry Capital LLC v. Mnuchin, 864 F.3d
591, 600 (D.C. Cir. 2017), cert. denied, 138 S. Ct. 978
(2018); Roberts v. FHFA, 889 F.3d 397, 409 (7th Cir.
2018). And the court of appeals here did not propose
any alternative test.

22
Under the two-part test, a variety of suits qualify as
derivative. For example, claims involving “improper”
corporate transactions, “waste of corporate assets,” or
“impairment or destruction of the business of the corporation” all belong to the corporation rather than to
the shareholder. Fletcher § 5923, at 628-629. In such
cases, the corporation suffers the harm, and the corporation would receive any recovery. Ibid.
In contrast, a suit is direct only if the shareholder
claims a “direct injury” that is “independent of any alleged injury to the corporation” and if “the recovery or
other relief flows directly” to him rather than to the corporation. Tooley, 845 A.2d at 1036, 1039. Examples of
direct claims include claims that the corporation has
“depriv[ed] [particular] shareholders of their right to
vote,” “wrongful[ly] refus[ed] to issue a certificate of
stock” to a shareholder, or has denied a shareholder his
right “to obtain inspection of corporate books or records.” Fletcher § 5915, at 604-607. In such cases, the
shareholder suffers a harm as an individual separate
and apart from any harm to the corporation, and the
shareholder would directly receive any recovery. Importantly, however, “diminution in the value of corporate stock resulting from some depreciation or injury to
corporate assets is a direct injury only to the corporation; it is merely an indirect or incidental injury to an
individual shareholder.” Fletcher § 5913, at 600.
3. The shareholders’ challenge to the Third Amendment
is a derivative claim

a. The challenge to the Third Amendment satisfies
the first part of the test for a derivative claim: it rests
on an allegation of harm to (and through) the corporation. The opening paragraph of the shareholders’ complaint captures the gravamen of the claim: in the Third

23
Amendment, FHFA and Treasury “forc[ed] these
publicly-traded, shareholder-owned Companies to turn
over their entire net worth.” J.A. 25 (emphasis altered).
That is an allegation of harm to the corporation, not to
the shareholders as individuals.
The remaining allegations reinforce that understanding. To list only a few examples:
• “The effect of the Net Worth Sweep is thus to
force the Companies to operate in perpetuity on
the brink of insolvency.” J.A. 84.
• “[T]he Companies’ inability to build capital reserves under the Net Worth Sweep [i]s a ‘serious
risk’ that erodes investor confidence in the Companies.” Ibid.
• “Forcing the Companies to [comply with the
sweep] has deleterious effects on their borrowing
costs, which is a major expense for both Companies.” J.A. 85.
• “FHFA is operating the Companies in an inherently unsafe and unsound manner and hindering
the ability of the Companies to restore their financial health so that they can be returned to
normal business operations.” J.A. 103-104.
To the extent that the complaint alleges harms to the
shareholders—for instance, the reduction in the value
of their shares and the depletion of corporate assets
from which they could be paid dividends, J.A. 115—
those harms are simply the incidental byproducts of the
alleged harm to the corporation. They fail the requirement that “[t]he stockholder’s claimed direct injury
must be independent of any alleged injury to the corporation.” Tooley, 845 A.2d at 1039; see Fletcher § 5913,

24
at 595-596 (“[S]hareholders cannot sue in their own
names and on their own behalf to recover for a loss resulting from depreciation of the value of their stock as
a result of an injury to the corporation.”).
b. Relatedly, the challenge to the Third Amendment
satisfies the second part of the test for a derivative action: any recovery would flow to the corporations, not
to the three individual shareholders. The complaint
seeks injunctions forbidding FHFA and Treasury from
enforcing the Third Amendment’s dividend provision, a
declaration that the provision is unlawful, and vacatur
of the provision. J.A. 117-118. The complaint also seeks
an injunction directing Treasury “to return to Fannie
and Freddie all dividend payments” made under the
Amendment. J.A. 118. The shareholders have proposed
effectuating the latter remedy through certain “accounting entries on the books of Treasury and the Companies.” Shareholders C.A. Supp. Br. 29.
All of those requested remedies flow to the corporations rather than the shareholders. In particular, any
relief enjoining, declaring invalid, or vacating the dividend provision would at most enable the corporations to
avoid paying dividends to Treasury. So too, any relief
requiring Treasury to return past dividend payments
might put more money in the corporations’ coffers, or
require accounting entries in the corporations’ books.
But such relief would not directly save the shareholders
any money, nor add money to the shareholders’ individual bank accounts, nor require any entries in the shareholders’ personal books.
In sum, the three individual shareholders allege
harm to (and through) the corporations and seek relief
that would flow to the corporations. That makes their
challenge to the Third Amendment derivative. Indeed,

25
although the shareholders allege that the Amendment
caused an unusual degree of harm to the enterprises,
the kind of claim they raise—namely, that the enterprises’ assets have been improperly diminished and
should be restored—is quintessentially derivative. See
Fletcher § 5924, at 647-648 (“[A]n action based on a
claim of waste of corporate assets is properly asserted
derivatively, and cannot be brought as an individual action.”). Accordingly, the succession clause precludes
this suit.
B. The APA Does Not Convert The Shareholders’ Suit Into
A Direct Claim

The court of appeals held this claim is direct, not derivative, because the shareholders have proceeded under the APA. Pet. App. 27a-32a. The court reasoned
that the APA itself grants a direct claim to any shareholder who satisfies the “zone of interests” test for
bringing suit under the APA, and that the shareholders
here fall within the zone of interests protected by the
Recovery Act’s limitations on FHFA’s powers as conservator. Id. at 28a. That reasoning is mistaken. Even
assuming that a contract adopted by the conservator
qualifies as “agency action” reviewable under the APA,
5 U.S.C. 702, the shareholders’ invocation of the APA
has no effect on the derivative character of their suit.
The court’s conclusion that the APA transforms the
shareholders’ suit from derivative to direct contradicts
the APA’s text, conflicts with this Court’s precedents,
and leads to untenable results.
1. Under the traditional test for distinguishing direct from derivative claims, the shareholders’ reliance
on the APA makes no difference to the character of
their suit. As discussed, the issue whether a share-

26
holder’s suit is derivative or direct turns on “who suffered the alleged harm” and “who would receive the
benefit of any recovery.” Fletcher § 5911, at 572 (emphasis added). The shareholders’ claim that the Third
Amendment exceeds FHFA’s conservatorship powers
neither rests on any direct injury to the shareholders
nor seeks any recovery that would flow directly to the
shareholders. See pp. 22-25, supra. The shareholders’
invocation of the APA cause of action as the method of
enforcing the Recovery Act’s alleged limitations does
not change that conclusion.
Indeed, the APA itself refutes any suggestion that
its cause of action overrides the traditional test for distinguishing derivative from direct actions or converts
the shareholders’ claim from a prohibited derivative
suit into a permissible direct suit. The APA grants a
right of review to, and waives the sovereign immunity
of the United States for, a person “adversely affected or
aggrieved by agency action within the meaning of a relevant statute.” 5 U.S.C. 702. This Court has held that
a person is “adversely affected or aggrieved” within the
meaning of the APA only if his asserted interest is “arguably within the zone of interests to be protected or
regulated” by the statute allegedly violated. Clarke v.
Securities Industry Ass’n, 479 U.S. 388, 395-396 (1987)
(citation omitted). On top of that limitation, though, the
final sentence of the APA right-of-review provision
makes clear that “[n]othing herein * * * affects other
limitations on judicial review or the power or duty of the
court to dismiss any action or deny relief on any other
appropriate legal or equitable ground.” 5 U.S.C. 702.
Accordingly, as this Court has explained, although
the APA grants a right of review and waives sovereign
immunity, it “d[oes] not affect any other limitation on

27
judicial review that would otherwise apply.” Darby v.
Cisneros, 509 U.S. 137, 153 (1993). Any limitation that
is otherwise “required by statute or by agency rule”
“continues to exist under the APA.” Ibid.
Here, the restrictions imposed by the Recovery Act’s
succession clause constitute “other limitations on judicial review.” 5 U.S.C. 702. They also constitute “other
appropriate legal or equitable ground[s]” for dismissing
the suit or denying relief. Ibid. Under the APA’s plain
terms, “[n]othing” in the statute even “affects”—much
less supersedes—the succession clause. Ibid.
2. This Court and other courts have construed other
statutes that grant a similar right of review not to alter
the operation of background restrictions on shareholder
suits. Like the APA, such statutes do not authorize
shareholders to sue when unlawful action against their
corporation causes the value of their shares to go down.
For example, a longstanding civil-rights statute protects the equal right of “[a]ll persons” to make and enforce contracts without regard to race, 42 U.S.C.
1981(a), and this Court has recognized an implied right
of action through which “aggrieved individuals” may enforce that prohibition, Jett v. Dallas Independent
School District, 491 U.S. 701, 731-732 (1989) (citation
omitted). Yet the Court has unanimously held that the
statute does not entitle a shareholder to sue over discrimination in connection with the corporation’s contracts, noting that such a result would contradict the
“fundamental” principle of corporation law that a shareholder has “no rights” under “the corporation’s contracts.” Domino’s Pizza, Inc. v. McDonald, 546 U.S.
470, 477 (2006). So too, the Racketeer Influenced and
Corrupt Organizations Act (RICO) allows suit by “[a]ny
person injured in his business or property by reason of

28
a violation.” 18 U.S.C. 1964(c). Yet the courts of appeals have “uniform[ly]” held that “corporate shareholders do not have standing to sue under the civil
RICO statute for alleged injuries to the corporation.”
Bixler v. Foster, 596 F.3d 751, 758 (10th Cir. 2010).
Likewise, the APA’s right-of-review provision must be
understood to retain background rules about restrictions on shareholder suits, not to displace those
limits and to grant individual shareholders a right to sue
over corporate injuries.
3. Finally, the court of appeals’ contrary theory
leads to untenable consequences. It would mean that a
person who owns a single share in a corporation could
bring an APA claim challenging agency action that injures the corporation, even if the action causes no injury
to the shareholder beyond an indirect, contingent reduction in the value of his share, and even if the corporation’s directors and officers decide that a suit would not
advance the corporation’s interests. For example, a
shareholder might invoke the APA to challenge the levying of a regulatory fee on the corporation, the denial of
a subsidy to the corporation, or the imposition of an asset divestment order on the corporation—all regardless
of whether the corporation’s directors and officers believe that a suit would be warranted. There is no sound
reason to read the APA to produce those implausible
results.
The court of appeals suggested that the APA’s zoneof-interests requirement would prevent those consequences, Pet. App. 31a-32a, but it is far from evident
why that would be so. A plaintiff satisfies that requirement if the interest he asserts is “arguably within the
zone of interests to be protected or regulated by the
statute.” Clarke, 479 U.S. at 396 (citation omitted). The

29
court identified no reason why, if the corporation’s direct economic interests fall within that zone, the shareholders’ derivative interests somehow fall outside that
same zone in the hypothetical suits just discussed, while
falling within that zone in this case. Cf. Burwell v.
Hobby Lobby Stores, Inc., 573 U.S. 682, 706-707 (2014)
(“When rights, whether constitutional or statutory, are
extended to corporations, the purpose is to protect the
rights” of the “human beings” who own and use the corporations.). The zone-of-interests test thus does not
clearly cabin the range of suits that shareholders could
bring under the APA seeking redress for harms to their
corporations. It is instead the shareholder-standing
rule that performs this function.
C. There Is No “Conflict Of Interest” Exception To The
Succession Clause

The shareholders alternatively argued below that,
even if their claim is properly characterized as derivative, the succession clause does not apply because
FHFA as conservator would face a conflict of interest
in deciding whether the enterprises should challenge
FHFA’s past actions as conservator. Shareholders C.A.
Br. 52-53. The court of appeals, however, did not rely
on that argument, and for good reason because it has no
basis in the statutory text or context. See Roberts, 889
F.3d at 409-410; Perry Capital, 864 F.3d at 625.
1. The succession clause states categorically that
FHFA, as conservator, “immediately succeed[s]” to “all
rights, titles, powers, and privileges * * * of any stockholder * * * with respect to the [enterprises] and
the[ir] assets.” 12 U.S.C. 4617(b)(2)(A)(i) (emphasis
added). Such broad and unqualified language leaves no
room for an implied limitation or exception where

30
FHFA as conservator allegedly has a conflict of interest. See United States v. Gonzales, 520 U.S. 1, 5, 10
(1997); Baltimore National Bank v. State Tax Commission, 297 U.S. 209, 212 (1936).
Indeed, when Congress meant to create an exception
to the succession clause, it said so explicitly. Another
provision of the Recovery Act authorizes the enterprises themselves to challenge FHFA’s appointment as
conservator or receiver within 30 days of the appointment. 12 U.S.C. 4617(a)(5)(A). The inclusion of an “express exception” generally precludes the recognition of
additional “implicit” exceptions. Jennings v. Rodriguez, 138 S. Ct. 830, 844 (2018).
Surrounding statutory language further undermines
a conflict-of-interest exception. The Recovery Act expressly provides that FHFA may exercise its conservatorship powers “in the best interests of the regulated
entity or the Agency.” 12 U.S.C. 4617(b)(2)(J)(ii) (emphasis added). It would turn the statute on its head to
treat the possibility that FHFA might invoke its statutory authority to consider its own interests as a reason
to impose unwritten limits on the succession clause’s
vesting of rights in FHFA. Further, the Recovery Act’s
anti-injunction provision bars certain suits “[e]xcept as
provided in this section or at the request of the Director.” 12 U.S.C. 4617(f ) (emphasis added). The emphasized phrase confirms that Congress saw nothing untoward about allowing FHFA, as conservator, to decide
whether particular claims against FHFA may proceed.
In addition, a conflict-of-interest exception to a bar
on derivative suits would make little sense, because the
derivative suit is itself a conflict-of-interest exception to
the general rules of corporate litigation. Although the
power to manage corporate litigation ordinarily belongs

31
to the corporation’s directors, the primary reason for
allowing derivative suits in certain circumstances is to
deny directors who “perpetrated the wrongs” the ability also to “obstruct any remedy.” Cohen v. Beneficial
Industrial Loan Corp., 337 U.S. 541, 548 (1949). Given
that the succession clause bars derivative suits despite
their conflict-avoiding function, it would be incongruous
to create an exception to the succession clause because
FHFA is alleged to have a conflict. See Perry Capital
LLC v. Lew, 70 F. Supp. 3d 208, 230-231 (D.D.C. 2014),
aff ’d in part and remanded in part, 864 F.3d 591 (D.C.
Cir. 2017), cert. denied, 138 S. Ct. 978 (2018).
2. The shareholders emphasized below that two
courts of appeals had read a succession provision in the
Financial Institutions Reform, Recovery, and Enforcement Act of 1989 (FIRREA), 12 U.S.C. 1811 et seq.—a
receivership statute on which the Recovery Act was
modeled—to allow derivative suits where the receiver
suffered from a conflict of interest. Shareholders C.A.
Br. 53 (citing Delta Savings Bank v. United States,
265 F.3d 1017, 1024 (9th Cir. 2001), cert. denied,
534 U.S. 1082 (2002); First Hartford Corp. Pension
Plan & Trust v. United States, 194 F.3d 1279, 1283
(Fed. Cir. 1999)). As the D.C. Circuit observed, however, neither of those courts squared such an exception
with the statutory text. See Perry Capital, 864 F.3d at
625; see also Roberts, 889 F.3d at 409. And this Court
“ha[s] no warrant to ignore clear statutory language on
the ground that other courts have done so.” Milner v.
Department of the Navy, 562 U.S. 562, 576 (2011).
The shareholders insist that Congress nonetheless
“must be presumed to have adopted” the gloss added by
those courts when it “reenacted substantially the same
language” in the Recovery Act. Shareholders C.A. Br.

32
53. But as a general matter, Congress’s failure to overturn an intermediate court’s erroneous interpretation
of a statute does not demonstrate that Congress meant
to ratify that error—much less that Congress meant
this Court to extend that error to additional statutes.
See Central Bank of Denver, N. A. v. First Interstate
Bank of Denver, N. A., 511 U.S. 164, 186 (1994). This
Court has explained, moreover, that Congress can be
presumed to have adopted a gloss added by lower courts
only where the lower courts’ decisions are so numerous,
uniform, and longstanding that they have “settled the
meaning” of the relevant statutory language. Lightfoot
v. Cendant Mortgage Corp., 137 S. Ct. 553, 563 (2017);
see Antonin Scalia & Bryan A. Garner, Reading Law:
The Interpretation of Legal Texts 325 (2012). The
shareholders rely on only two appellate court decisions
here, making it particularly implausible that those decisions “so clearly ‘settle the meaning of the existing statutory provision’ in FIRREA that [a court] must conclude the Congress intended sub silentio to incorporate
those rulings into the Recovery Act.’ ” Perry Capital,
864 F.3d at 625 (brackets and citation omitted). Accordingly, this Court should adhere to the succession
clause’s plain text and hold that it precludes the shareholders’ statutory claim.

33
II. THE ANTI-INJUNCTION CLAUSE ALSO BARS THE
SHAREHOLDERS’ CHALLENGE TO THE THIRD
AMENDMENT

The Recovery Act’s anti-injunction clause provides:
Except as provided in this section or at the request
of the Director, no court may take any action to restrain or affect the exercise of powers or functions of
the Agency as a conservator or a receiver.
12 U.S.C. 4617(f ) (emphasis omitted). The court of appeals correctly recognized that, at a minimum, this provision precludes injunctive relief where the conservator
is “exercising a function or power” that is “authorized
by [the] statute,” even if the conservator is doing so “improperly” or “unlawfully.” Pet. App. 21a. As shown below, the Third Amendment falls well within the broad
powers that the Recovery Act granted FHFA as conservator of the enterprises. The court reached the contrary conclusion only by imposing various atextual limitations on those unusually sweeping authorities.
A. The Anti-Injunction Clause Bars The Shareholders’
Claim Because The Claim Challenges The Exercise Of
Conservatorship Powers Granted By The Recovery Act

In the Third Amendment, FHFA renegotiated the
dividends and fees owed to Treasury for its capital investment and commitment. That modification, which
safeguarded the remaining commitment, fell well within
FHFA’s power as conservator to take actions that may
be appropriate to preserve and conserve the enterprises’ assets and necessary to put the enterprises in a
sound and solvent financial condition. As every court of
appeals to consider the issue apart from the court below
has held, the anti-injunction clause therefore bars the
shareholders’ statutory claims. Jacobs v. FHFA, 908

34
F.3d 884, 890 (3d Cir. 2018); Saxton v. FHFA, 901 F.3d
954, 959 (8th Cir. 2018); Roberts, 889 F.3d at 402; Robinson v. FHFA, 876 F.3d 220, 232 (6th Cir. 2017); Perry
Capital, 864 F.3d at 606.
1. Congress granted the conservator broad powers

a. The Recovery Act provides that FHFA may “be
appointed conservator or receiver for the purpose of reorganizing, rehabilitating, or winding up the affairs of a
regulated entity.” 12 U.S.C. 4617(a)(2). The Act further
provides that FHFA “may, as conservator, take such
action as may be—(i) necessary to put the regulated entity in a sound and solvent condition; and (ii) appropriate to carry on the business of the regulated entity and
preserve and conserve the assets and property of the
regulated entity.” 12 U.S.C. 4617(b)(2)(D). By empowering the conservator to take actions that “may be” necessary and appropriate—rather than actions that “are”
necessary and appropriate—Congress made plain that
the conservator enjoys broad “managerial judgment” to
make “hard operational calls” about “the necessity and
fiscal wisdom” of particular measures, especially in
light of “ever-changing market conditions.” Perry Capital, 864 F.3d at 607-608, 613.
The Recovery Act also makes plain that FHFA may
deploy a wide range of tools in performing those conservatorship functions. Most importantly, the conservator
may step into the shoes of the enterprises and use the
powers of the enterprises themselves. The succession
clause, as already discussed, provides that FHFA succeeds to “all rights, titles, powers, and privileges of the
[enterprises], and of any stockholder, officer, or director * * * with respect to the [enterprises].” 12 U.S.C.
4617(b)(2)(A)(i) (emphasis added). Further, FHFA
may “operate the [enterprises] with all the powers of

35
the shareholders, the directors, and the officers of the
[enterprises] and conduct all the business of the [enterprises].” 12 U.S.C. 4617(b)(2)(B)(i) (emphasis added).
In particular, the Recovery Act empowers the
FHFA to control and dispose of the enterprises’ assets
in the course of performing its functions as conservator.
FHFA succeeds to all rights and powers, not just of the
enterprises themselves, but also “of any stockholder, officer, or director * * * with respect to * * * the assets
of the [enterprises].” 12 U.S.C. 4617(b)(2)(A)(i). FHFA
may “take over the assets of and operate the [enterprises]
***
and conduct all [their] business.”
12 U.S.C. 4617(b)(2)(B)(i). And FHFA may “transfer or
sell any asset or liability of the [enterprises] in default,”
and “may do so without any approval, assignment, or
consent with respect to such transfer or sale.” 12 U.S.C.
4617(b)(2)(G); see 12 U.S.C. 4502(8)(A) (providing that
an enterprise is in “default” if, among other things, it is
under a conservatorship).
b. The conservator’s authority is especially broad
because, in exercising the powers just discussed, the
conservator may consider the interests of the public at
large in the ongoing operation of the enterprises, rather
than prioritizing the interests of the enterprises’ private shareholders. That conclusion follows from the
text in three ways.
First, Fannie Mae and Freddie Mac hold congressional charters and exist to serve the public interest.
Congress has specifically declared that they “have important public missions,” that their “continued ability
* * * to accomplish their public missions is important to
providing housing in the United States and the health
of the Nation’s economy,” and that they “have an af-

36
firmative obligation to facilitate the financing of affordable housing for low- and moderate-income families in a
manner consistent with their overall public purposes.”
12 U.S.C. 4501(1), (2), and (7). The conservator’s “reorganiz[ation]” and “rehabilit[ation]” of the enterprises,
12 U.S.C. 4617(a)(2), may therefore properly focus on
restoring the enterprises’ prospective ability to perform their public functions, rather than on restoring
their ability to deliver past profits to their shareholders.
See Saxton, 901 F.3d at 961 (Stras, J., concurring).
Second, the Recovery Act specifically empowers the
conservator to take any authorized action “which the
Agency determines is in the best interests of the [enterprises] or the Agency.” 12 U.S.C. 4617(b)(2)(J)(ii). As
noted, the enterprises’ interests include furthering
their public mission. Likewise, FHFA’s own interests
“reflect the interests of * * * the public” it serves. Jacobs, 908 F.3d at 893; cf. Nken v. Holder, 556 U.S. 418,
435 (2009) (noting that the government’s interests
“merge” with “the public interest”). And by empowering the conservator to take any authorized action
“which [it] determines is in the best interests of the [enterprises] or the Agency,” 12 U.S.C. 4617(b)(2)(J)(ii)
(emphasis added), the Act grants the conservator the
power and discretion to “decid[e] whose interests to
pursue” in performing its functions. Saxton, 901 F.3d
at 963 (Stras, J., concurring). In contrast, the Act omits
“shareholders” from the list of “best interests” to be
considered. Jacobs, 908 F.3d at 893; cf. 12 U.S.C.
1821(c)(13)(B)(ii) (parallel provision of FIRREA that
similarly omits shareholders, but specifically includes
“depositors,” in the list of entities whose interests the
receiver is to consider).

37
Third, the Recovery Act allows Treasury to invest
money in the enterprises only on terms that “provide
stability to the financial markets,” “prevent disruptions
in the availability of mortgage finance,” and “protect
the taxpayer.” 12 U.S.C. 1455(l)(1)(B), 1719(g)(1)(B).
The Act also directs Treasury to consider particular
steps—such as “limitations on the payment of
dividends”—in order to “protect the taxpayers.” 12
U.S.C. 1455(l)(1)(C)(vi), 1719(g)(1)(C)(vi). Those provisions provide further evidence that Congress prioritized the public interest over the shareholders’ interests. See Perry Capital, 864 F.3d at 600.
2. FHFA as conservator exercised its broad statutory
powers in agreeing to the Third Amendment

a. In assessing whether the Third Amendment falls
within FHFA’s conservatorship powers, it is important
to consider the factual background concerning the enterprises’ financial situation at the time FHFA acted.
The critical points are acknowledged in the complaint.
By 2012, the enterprises owed Treasury roughly $19
billion per year in dividends based on the amount of
capital Treasury had invested (plus potential fees for
the outstanding capital commitment). J.A. 57, 71, 74.
From 2009 to 2011, the quarterly dividends that the enterprises owed had repeatedly exceeded their quarterly
earnings by billions of dollars. J.A. 71, 74. During those
years, the enterprises drew on Treasury’s commitment
of capital simply to satisfy their dividend obligations to
Treasury. J.A. 66. But under the Second Amendment,
the amount of Treasury’s capital commitment would
have been capped at the end of 2012. J.A. 62. As a result, if the enterprises had continued the practice of
drawing on Treasury’s commitment to pay Treasury’s

38
dividends, the dividend payments alone could eventually have consumed the commitment, leaving the enterprises unable to use the commitment for its intended
purpose of backstopping their ordinary operations.
Moreover, the enterprises faced the possibility that
their dividend obligations would increase even beyond
the $19 billion figure. Because the old formula tied
Treasury’s dividend to the amount of money Treasury
had invested, drawing on Treasury’s capital commitment to pay the dividend increased the size of the dividend going forward. J.A. 57. The enterprises thus
faced a vicious cycle: drawing money from Treasury to
pay existing dividends, in turn increasing the size of future dividends, resulting in the drawing of even more
money from Treasury to pay those dividends, in turn increasing the size of those dividends still more—and after 2012, reducing Treasury’s remaining capital commitment in the process.
In those circumstances, FHFA as conservator and
Treasury renegotiated the enterprises’ dividend obligations and commitment fee in the Third Amendment.
The Amendment “replaced Treasury’s fixed dividend
with a variable dividend” and “eliminated Treasury’s
right to an annual commitment fee.” Roberts, 889 F.3d
at 401. Under the amended dividend formula, the enterprises would owe no dividends at all in quarters when
they lacked sufficient net worth, but when they did have
sufficient net worth, the dividend would be equal to the
full amount of the net worth minus a capital buffer.
Perry Capital, 864 F.3d at 602. Because the dividend
would never exceed the enterprises’ net worth, the
Amendment “eliminated the risk that cash-dividend
payments would consume the * * * financial lifeline”
provided by Treasury. Roberts, 889 F.3d at 404. But

39
the negotiated price for eliminating that risk was paying Treasury a quarterly dividend equal to the enterprises’ net worth (minus a buffer) when they were profitable.
In some quarters, the new dividend formula has cost
the enterprises more than the old formula; in other
quarters, it has cost the enterprises less. The result for
any given quarter depends on whether the enterprises’
net worth beyond the capital buffer is greater or less
than each enterprise’s quarterly share of the $19 billion
(and growing) dividend that the enterprises previously
would have owed plus any commitment fee. For example, in 2015, the enterprises collectively paid Treasury
only $15.8 billion. See Perry Capital, 864 F.3d at 602.
b. Given that undisputed factual background, the
Third Amendment fell well within FHFA’s broad powers under the Recovery Act as the enterprises’ conservator. “Renegotiating dividend agreements, managing
heavy debt and other financial obligations, and ensuring
ongoing access to vital yet hard-to-come-by capital are
quintessential conservatorship tasks.” Perry Capital,
864 F.3d at 607.
In particular, the Third Amendment fell within the
conservator’s power to “take such action as may be—(i)
necessary to put the [enterprises] in a sound and solvent
condition; and (ii) appropriate to * * * preserve and
conserve the assets and property of the [enterprises].”
12 U.S.C. 4617(b)(2)(D). The enterprises’ “assets and
property” included Treasury’s capital commitment. See
Jacobs, 908 F.3d at 890. The Amendment helped “preserve and conserve” that asset, by eliminating the risk
that the enterprises’ dividend payments would consume
it. See Roberts, 889 F.3d at 404-405. The Amendment
also helped put the enterprises in a “sound and solvent

40
condition”—by ensuring that the enterprises would
never again owe more in dividends than they could afford to pay from their net worth and thereby safeguarding Treasury’s capital commitment. See id. at 405; Saxton, 901 F.3d at 962 (Stras, J., concurring). More to the
point, it was permissible for FHFA to conclude that the
Amendment “may be” necessary and appropriate to
achieve these objectives; under the Recovery Act’s plain
terms, no more was required.
In addition, the particular mechanism that the Third
Amendment used to preserve and conserve assets and
to promote soundness and solvency—namely, renegotiating dividend payments and commitment fees—was
the exercise of a power Congress granted the conservator. As noted, the Recovery Act allows the conservator
to step into the shoes of the enterprises and to engage
in the kinds of activities that the enterprises could
themselves undertake.
12 U.S.C. 4617(b)(2)(A)(i),
(B)(i), and (iii). The range of activities that a corporation could undertake, in turn, includes renegotiating
contracts and promising dividends to investors. See Jacobs, 908 F.3d at 890. FHFA, standing in the enterprises’ shoes, was permitted to use those same authorities to fulfill its functions as conservator. What is more,
the Recovery Act specifically empowers the conservator to “transfer or sell any asset or liability” of the enterprises “without any approval, assignment, or consent.” 12 U.S.C. 4617(b)(2)(G). Through the Third
Amendment, the conservator effectively sold Treasury
one of the enterprises’ “asset[s]” (namely, its potential
net worth in future quarters) in consideration for eliminating some of the enterprises’ existing “liabilit[ies]”
(namely, the dividends and fees they owed to Treasury
under the Second Amendment). Ibid.

41
c. The Third Amendment reflected a permissible
balancing of competing interests. To start, the Amendment protected the interests of the enterprises themselves. As discussed, the Amendment ensured that the
enterprises would never again owe dividends that exceed their net worth—thus eliminating the possibility of
“[c]rushing dividend payments” in bad quarters. Saxton, 901 F.3d at 962 (Stras, J., concurring). And it
thereby “eliminated the risk that cash-dividend payments would consume the * * * financial lifeline”
provided by Treasury’s capital commitment. Roberts,
889 F.3d at 404.
Correspondingly, the Third Amendment protected
the interests of the public in the enterprises’ performance of their public missions. By safeguarding the enterprises, the Amendment assured “the public” that
“Fannie and Freddie can continue to stabilize the housing market” even during future “downturns.” Jacobs,
908 F.3d at 894.
In addition, the Third Amendment accommodated
Treasury’s statutory obligation to “protect the taxpayer” when investing in the enterprises. 12 U.S.C.
1455(l)(1)(B)(iii), 1719(g)(1)(B). Under the amended
dividend formula, the taxpayers took on a new risk:
Treasury would receive no dividends at all in quarters
when the enterprises lost money, would receive smaller
dividends when either enterprise earned less than its
quarterly share of $19 billion, and gave up the right to
commitment fees. In return for that risk to taxpayers,
Treasury could receive more in dividends in good quarters than it would have received under the old formula.
To be sure, the conservator’s actions involved making
tradeoffs. From the enterprises’ perspective, although
the Third Amendment provided downside protection in

42
bad quarters from crushing dividend payments and
commitment fees, it also eliminated the upside potential
in good quarters to accrue capital. Relatedly, although
the new formula might cost the enterprises less than the
old formula in some quarters, it might cost the enterprises more in other quarters. In fact, the complaint
alleges, in hindsight, that the total dividends under the
new formula have exceeded the dividends that would
have been owed under the old formula. J.A. 39. Meanwhile, from the shareholders’ perspective, “[t]he most
serious negative consequence * * * is that they can no
longer share in Fannie’s and Freddie’s successes. Instead, both entities must pay out all excess capital on a
quarterly basis to the Department of the Treasury,
eliminating the possibility of shareholder dividends.”
Saxton, 901 F.3d at 962 (Stras, J., concurring).
Those consequences are undoubtedly significant, but
in the final analysis, they do “not negate the [Third
Amendment’s] asset-preserving-and-conserving effects
or take this action outside the broad discretion accorded
to the FHFA under the Housing and Economic Recovery Act.” Saxton, 901 F.3d at 963 (Stras, J., concurring). “Picking among different ways of preserving and
conserving assets, deciding whose interests to pursue
while doing so, and determining the best way to do so
are all choices that the Housing and Economic Recovery
Act clearly assigns to the FHFA, not courts.” Ibid.
B. The Court Of Appeals Erroneously Imposed Several
Atextual Limits On FHFA’s Conservatorship Powers
1. The Recovery Act’s provisions on receivership do not
preclude the Third Amendment

The court of appeals observed that the Recovery Act
distinguishes between FHFA’s powers as conservator

43
and its powers as receiver, and concluded that the Third
Amendment “exceeded the conservator’s powers and is
the type of transaction reserved for a receiver.” Pet.
App. 47a. The court erred in imposing limits on FHFA’s
conservatorship powers based on flawed inferences
from FHFA’s receivership powers.
The Recovery Act makes some powers available to
both a conservator and a receiver, some only to a conservator, and some only to a receiver. 12 U.S.C.
4617(b). The powers on which FHFA relied here belong
to the first two of those categories. The power to take
actions that “may be” necessary to put the enterprises
in a “sound and solvent condition” and appropriate to
“preserve and conserve” their assets belongs to FHFA
“as conservator.” 12 U.S.C. 4617(b)(2)(D); see 12 U.S.C.
4617(b)(2)(B)(iv) (also granting receiver the power to
“preserve and conserve assets”). And the powers to assume the “rights, titles, powers, and privileges” of the
enterprises, and to “transfer or sell any asset or liability,” belongs to FHFA “as conservator or receiver.”
12 U.S.C. 4617(b)(2)(A) and (G). FHFA has not invoked
any power that belongs to receivers alone.
The court of appeals emphasized that only a receiver,
not a conservator, has the power to “place the regulated
entity in liquidation.” Pet. App. 11a (quoting 12 U.S.C.
4617(b)(2)(E)). The Third Amendment, however, is not
a liquidation. “[L]iquidation,” in this context, is the
“process of converting assets into cash.” Black’s Law
Dictionary 1117 (11th ed. 2019). The Third Amendment
did not dissolve the enterprises and convert their assets
into cash. As the D.C. Circuit observed, “[t]he proof
* * * is in the pudding.” Perry Capital, 864 F.3d at 610.
Eight years on from the Amendment, the enterprises
continue to operate. They continue to purchase millions

44
of mortgages, continue to issue trillions of dollars in
mortgage-backed securities, and continue to perform
their important public functions of providing liquidity
and stability to the housing market. Id. at 610-611. Far
from having been liquidated, the enterprises remain going concerns to this day. The Amendment also contains
a provision maintaining Treasury’s senior liquidation
preference—a right to be paid first if the enterprises
are liquidated. Pet. App. 14a. That provision would
make no sense if the Amendment had already liquidated
the enterprises.
The court of appeals’ ultimate objection thus was not
that the Third Amendment itself liquidated the enterprises, but that it set the stage for a future liquidation—
that it “abandoned rehabilitation” of the enterprises in
favor of “ ‘expedit[ing] the wind down of Fannie Mae and
Freddie Mac’ ” at some later point. Pet. App. 46a (citation omitted). That objection is flawed both in premise
and conclusion.
To begin, as its name confirms, the Third Amendment was not set in stone. Although it did not provide
an end-date for the net-worth dividend and a return to
capital accrual, that “wait-and-see view of the Companies’ long-term financial condition,” Perry Capital, 864
F.3d at 613, by no means put the enterprises on an irreversible path to liquidation. See Br. in Opp. 16 (discussing Treasury’s plans for “permitting the Companies to
rebuild capital and ultimately exit conservatorship”); cf.
Trump v. Hawaii, 138 S. Ct. 2392, 2410 (2018) (explaining that a measure may be temporary even if the government has not “prescribe[d] in advance a fixed end
date”).
Regardless, “winding up” the enterprises is an authorized purpose of FHFA as conservator no less than

45
as receiver. The Recovery Act provides that FHFA
may “be appointed conservator or receiver for the purpose of reorganizing, rehabilitating, or winding up the
affairs of [the enterprises].” 12 U.S.C. 4617(a)(2) (emphases added). As this Court recently explained when
interpreting a statutory provision with a similar grammatical structure, the “disjunctive word ‘or’ ” shows that
the provision covers “any combination” of the provision’s “nouns” and “gerunds.” Encino Motorcars, LLC
v. Navarro, 138 S. Ct. 1134, 1141-1142 (2018). More
generally, “sometimes conservatorship will involve managing the regulated entity in the lead up to the appointment of a liquidating receiver.” Perry Capital, 864 F.3d
at 609-610. “The authority accorded FHFA as a conservator to reorganize or rehabilitate the affairs of a regulated entity thus must include taking measures to prepare a company for a variety of financial scenarios, including possible liquidation.” Id. at 610.
2. The common-law restrictions on conservatorships do
not preclude the Third Amendment

The court of appeals asserted that, at common law, a
conservator’s power to “operate, rehabilitate, reorganize, and restore the health of the troubled institution”
was intended to enable the institution to go back to making profits for its shareholders. Pet. App. 49a (citation
omitted). The court believed that, in adopting the Third
Amendment, FHFA violated that common-law conservatorship objective. Id. at 48a-49a. But the court’s reliance on the common law was misplaced, because the
Recovery Act departs from traditional conservatorship
in important ways. Perry Capital, 864 F.3d at 613.
To begin, the ward in a traditional conservatorship is
a purely private corporation, but Fannie Mae and Fred-

46
die Mac hold congressional charters and serve important public missions. 12 U.S.C. 4501(1), (2), and (7).
A traditional conservator also is required to act solely
in the interests of the ward, but FHFA “may, as conservator or receiver[,] * * * take any action authorized by
this section, which the Agency determines is in the best
interests of the regulated entity or the Agency.” 12
U.S.C. 4617(b)(2)(J)(ii) (emphasis added). And finally,
“Congress in the Recovery Act gave FHFA the ability
to obtain from Treasury capital infusions of unprecedented proportions”—an option that “bears no resemblance to the type of conservatorship measures that a
private common-law conservator would be able to undertake.” Perry Capital, 864 F.3d at 613.
All of those features confirm that, in contrast to a
private conservator, FHFA need not exercise its powers as conservator for the purpose of enabling the enterprises to make profits for their shareholders. FHFA
may instead prioritize ensuring the enterprises’ ongoing ability to serve their public missions. FHFA did just
that here.
3. The shareholders’ allegations about the purposes
and effects of the Third Amendment do not invalidate
the Amendment

The court of appeals also relied on the shareholders’
allegations about the supposed invidious purposes and
harmful effects of the Third Amendment. Pet. App. 46a,
49a-50a. In the present procedural posture, we assume
(but do not admit) the truth of those allegations. Even
so, they fail to take the Amendment outside the sweeping scope of FHFA’s conservatorship powers.
To start, although the shareholders do not dispute
that, as an objective matter, the Third Amendment
eliminated the possibility of dividends that exceeded the

47
enterprises’ net worth and that caused the enterprises
to draw down Treasury’s capital commitment, they allege that none of those benefits was “the true reason for
the Net Worth Sweep.” J.A. 35. They maintain that the
Amendment’s real motive was to set the stage for a future liquidation—to ensure that the enterprises “will be
wound down and will not be allowed to retain profits,
rebuild capital, and return to the market in their prior
form.” J.A. 97 (citation omitted). Even setting aside
whether that motive would be impermissible, see pp. 4445, supra, no provision in the Recovery Act invalidates
the objectively proper exercise of the conservatorship
powers at issue here based solely on FHFA’s alleged
subjective motives. See Perry Capital, 864 F.3d at 612;
Robinson, 876 F.3d at 229 n.7.
Notably, other provisions in the same section of the
Recovery Act that are inapplicable here do refer to motive. See 12 U.S.C. 4617(a)(6) (shielding directors from
liability for “consenting in good faith to the appointment
of the Agency as conservator or receiver”); 12 U.S.C.
4617(b)(15)(C)(i)-(ii) (referring to transferees who receive the enterprises’ property in “good faith”);
12 U.S.C. 4617(i)(12) (referring to entities that extend
credit to the enterprises in “good faith”). The provisions on which the conservator has relied here, by contrast, contain no comparable language. “Where Congress includes particular language in one section of a
statute but omits it in another section of the same Act,
it is generally presumed that Congress acts intentionally and purposely in the disparate inclusion or exclusion.” Russello v. United States, 464 U.S. 16, 23 (1983)
(brackets and citation omitted).

48
The shareholders next allege that FHFA mischaracterized the necessity of the Third Amendment. According to the complaint, a variety of circumstances—such
as a “strengthening housing market,” “the improving
quality of loans guaranteed by the Companies,” and
“the Companies’ improved financial outlook”—made it
unlikely that a “dividend obligation to Treasury could
cause a death spiral.” J.A. 34. Again, however, by empowering the conservator to take action that “may be”
necessary and appropriate, 12 U.S.C. 4617(b)(2)(D), the
Recovery Act precludes courts from second-guessing
the conservator’s predictive judgments about the actual
necessity or appropriateness of a particular action.
The shareholders also allege that the Third Amendment harms the enterprises in various ways—for instance, by preventing the enterprises from building up
capital. J.A. 83-84. Once again, though, those allegations show no more than that the decision to enter into
the Amendment had costs as well as benefits. Nothing
in the Recovery Act empowers a court to set aside the
conservator’s action on the basis of shareholder disagreement with the conservator’s weighing of pros and
cons or balancing of competing interests.
Last of all, the shareholders allege—with the benefit
of hindsight, in a suit brought four years after the adoption of the Third Amendment—that the Amendment
turned out to be a bad deal for the enterprises, because
the enterprises have thus far paid more under the new
formula than they would have owed under the old formula. J.A. 39. The shareholders overlook, however,
that the enterprises got something in return for those
additional payments: if the enterprises had instead lost
money in the years after the Third Amendment, “Treasury would have [had] to forgo payment entirely,” saving

49
the enterprises $19 billion a year plus any commitment
fee. Perry Capital, 864 F.3d at 612. Further, the shareholders focus on what has happened so far, but fail to
take “a broader and longer-term view” of what might
happen in the future. Ibid. If the enterprises incur
losses in years to come, the new dividend formula will
save the enterprises money, preserve Treasury’s capital commitment for its intended purpose, and allow the
enterprises to “continue to stabilize the housing market.” Jacobs, 908 F.3d at 894. Courts have no authority
under the Recovery Act to second-guess the conservator’s business judgment on those points.
Accordingly, by holding that the Third Amendment
could be invalidated based on the allegations above, the
court of appeals itself authorized violation of the Recovery Act’s anti-injunction clause, which prevents restraining “the exercise of powers or functions of the
Agency as a conservator.” 12 U.S.C. 4617(f ). “It is clear
that the choice among suitable alternatives belongs to
the FHFA, not to the shareholders and certainly not to
the courts.” Saxton, 901 F.3d at 962 (Stras, J., concurring).

50
CONCLUSION

This Court should reverse the judgment of the court
of appeals reversing the district court’s dismissal of the
shareholders’ claim that FHFA exceeded its statutory
powers as conservator.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
HASHIM M. MOOPPAN
Counselor to the Solicitor
General
SOPAN JOSHI
Senior Counsel to the
Assistant Attorney General
VIVEK SURI
Assistant to the Solicitor
General
MARK B. STERN
ABBY C. WRIGHT
GERARD SINZDAK
Attorneys

AUGUST 2020

APPENDIX

1.

5 U.S.C. 702 provides:

Right of review
A person suffering legal wrong because of agency action, or adversely affected or aggrieved by agency action
within the meaning of a relevant statute, is entitled to
judicial review thereof. An action in a court of the
United States seeking relief other than money damages
and stating a claim that an agency or an officer or employee thereof acted or failed to act in an official capacity or under color of legal authority shall not be dismissed nor relief therein be denied on the ground that
it is against the United States or that the United States
is an indispensable party. The United States may be
named as a defendant in any such action, and a judgment
or decree may be entered against the United States:
Provided, That any mandatory or injunctive decree shall
specify the Federal officer or officers (by name or by title), and their successors in office, personally responsible for compliance. Nothing herein (1) affects other
limitations on judicial review or the power or duty of the
court to dismiss any action or deny relief on any other
appropriate legal or equitable ground; or (2) confers authority to grant relief if any other statute that grants
consent to suit expressly or impliedly forbids the relief
which is sought.

(1a)

2a
2.

12 U.S.C. 1455(l) provides:

Obligations and securities of the Corporation
(l)

Temporary authority of Treasury to purchase obligations and securities; conditions
(1)

Authority to purchase
(A)

General authority

In addition to the authority under subsection
(c) of this section, the Secretary of the Treasury is
authorized to purchase any obligations and other
securities issued by the Corporation under any
section of this chapter, on such terms and conditions as the Secretary may determine and in such
amounts as the Secretary may determine. Nothing in this subsection requires the Corporation to
issue obligations or securities to the Secretary
without mutual agreement between the Secretary
and the Corporation. Nothing in this subsection
permits or authorizes the Secretary, without the
agreement of the Corporation, to engage in open
market purchases of the common securities of the
Corporation.
(B)

Emergency determination required

In connection with any use of this authority, the
Secretary must determine that such actions are
necessary to—
(i)
kets;

provide stability to the financial mar-

(ii) prevent disruptions in the availability
of mortgage finance; and
(iii)

protect the taxpayer.

3a
(C)

Considerations

To protect the taxpayers, the Secretary of the
Treasury shall take into consideration the following in connection with exercising the authority
contained in this paragraph:
(i)
The need for preferences or priorities
regarding payments to the Government.
(ii) Limits on maturity or disposition of
obligations or securities to be purchased.
(iii) The Corporation’s plan for the orderly
resumption of private market funding or capital market access.
(iv) The probability of the Corporation fulfilling the terms of any such obligation or other
security, including repayment.
(v) The need to maintain the Corporation’s status as a private shareholder-owned
company.
(vi) Restrictions on the use of Corporation
resources, including limitations on the payment
of dividends and executive compensation and
any such other terms and conditions as appropriate for those purposes.
(D)

Reports to Congress

Upon exercise of this authority, the Secretary
shall report to the Committees on the Budget, Financial Services, and Ways and Means of the
House of Representatives and the Committees on
the Budget, Finance, and Banking, Housing, and
Urban Affairs of the Senate as to the necessity for

4a
the purchase and the determinations made by the
Secretary under subparagraph (B) and with respect to the considerations required under subparagraph (C), and the size, terms, and probability of repayment or fulfillment of other terms of
such purchase.
(2)

Rights; sale of obligations and securities
(A)

Exercise of rights

The Secretary of the Treasury may, at any
time, exercise any rights received in connection
with such purchases.
(B)

Sale of obligation and securities

The Secretary of the Treasury may, at any
time, subject to the terms of the security or otherwise upon terms and conditions and at prices determined by the Secretary, sell any obligation or
security acquired by the Secretary under this subsection.
(C)

Deficit reduction

The Secretary of the Treasury shall deposit in
the General Fund of the Treasury any amounts received by the Secretary from the sale of any obligation acquired by the Secretary under this subsection, where such amounts shall be—
(i)
dedicated for the sole purpose of deficit reduction; and
(ii) prohibited from use as an offset for
other spending increases or revenue reductions.

5a
(D)

Application of sunset to purchased obligations or securities

The authority of the Secretary of the Treasury
to hold, exercise any rights received in connection
with, or sell, any obligations or securities purchased is not subject to the provisions of paragraph (4).
(3)

Funding

For the purpose of the authorities granted in this
subsection, the Secretary of the Treasury may use
the proceeds of the sale of any securities issued under
chapter 31 of Title 31, and the purposes for which securities may be issued under chapter 31 of Title 31
are extended to include such purchases and the exercise of any rights in connection with such purchases.
Any funds expended for the purchase of, or modifications to, obligations and securities, or the exercise of
any rights received in connection with such purchases
under this subsection shall be deemed appropriated
at the time of such purchase, modification, or exercise.
(4)

Termination of authority

The authority under this subsection (l), with the
exception of paragraphs (2) and (3) of this subsection,
shall expire December 31, 2009.
(5)

Authority of the Director with respect to executive compensation

The Director shall have the power to approve, disapprove, or modify the executive compensation of
the Corporation, as defined under Regulation S-K,
17 C.F.R. 229.

6a
3.

12 U.S.C. 1719(g) provides:

Secondary market operations
(g)

Temporary authority of Treasury to purchase obligations and securities; conditions
(1)

Authority to purchase
(A)

General authority

In addition to the authority under subsection
(c) of this section, the Secretary of the Treasury is
authorized to purchase any obligations and other
securities issued by the corporation under any
section of this chapter, on such terms and conditions as the Secretary may determine and in such
amounts as the Secretary may determine. Nothing in this subsection requires the corporation to
issue obligations or securities to the Secretary
without mutual agreement between the Secretary
and the corporation. Nothing in this subsection
permits or authorizes the Secretary, without the
agreement of the corporation, to engage in open
market purchases of the common securities of the
corporation.
(B)

Emergency determination required

In connection with any use of this authority, the
Secretary must determine that such actions are
necessary to—
(i)
kets;

provide stability to the financial mar-

(ii) prevent disruptions in the availability
of mortgage finance; and
(iii)

protect the taxpayer.

7a
(C)

Considerations

To protect the taxpayers, the Secretary of the
Treasury shall take into consideration the following in connection with exercising the authority
contained in this paragraph:
(i)
The need for preferences or priorities
regarding payments to the Government.
(ii) Limits on maturity or disposition of
obligations or securities to be purchased.
(iii) The corporation’s plan for the orderly
resumption of private market funding or capital market access.
(iv) The probability of the corporation fulfilling the terms of any such obligation or other
security, including repayment.
(v) The need to maintain the corporation’s status as a private shareholder-owned
company.
(vi) Restrictions on the use of corporation
resources, including limitations on the payment
of dividends and executive compensation and
any such other terms and conditions as appropriate for those purposes.
(D)

Reports to Congress

Upon exercise of this authority, the Secretary
shall report to the Committees on the Budget, Financial Services, and Ways and Means of the House
of Representatives and the Committees on the
Budget, Finance, and Banking, Housing, and Urban Affairs of the Senate as to the necessity for

8a
the purchase and the determinations made by the
Secretary under subparagraph (B) and with respect to the considerations required under subparagraph (C), and the size, terms, and probability of repayment or fulfillment of other terms of
such purchase.
(2)

Rights; sale of obligations and securities
(A)

Exercise of rights

The Secretary of the Treasury may, at any time,
exercise any rights received in connection with
such purchases.
(B)

Sale of obligation and securities

The Secretary of the Treasury may, at any
time, subject to the terms of the security or otherwise upon terms and conditions and at prices determined by the Secretary, sell any obligation or
security acquired by the Secretary under this subsection.
(C)

Deficit reduction

The Secretary of the Treasury shall deposit in
the General Fund of the Treasury any amounts received by the Secretary from the sale of any obligation acquired by the Secretary under this subsection, where such amounts shall be—
(i)
dedicated for the sole purpose of deficit reduction; and
(ii) prohibited from use as an offset for
other spending increases or revenue reductions.

9a
(D)

Application of sunset to purchased obligations or securities

The authority of the Secretary of the Treasury
to hold, exercise any rights received in connection
with, or sell, any obligations or securities purchased is not subject to the provisions of paragraph (4).
(3)

Funding

For the purpose of the authorities granted in this
subsection, the Secretary of the Treasury may use
the proceeds of the sale of any securities issued under
chapter 31 of Title 31, and the purposes for which securities may be issued under chapter 31 of Title 31
are extended to include such purchases and the exercise of any rights in connection with such purchases.
Any funds expended for the purchase of, or modifications to, obligations and securities, or the exercise of
any rights received in connection with such purchases
under this subsection shall be deemed appropriated
at the time of such purchase, modification, or exercise.
(4)

Termination of authority

The authority under this subsection (g), with the
exception of paragraphs (2) and (3) of this subsection,
shall expire December 31, 2009.
(5)

Authority of the Director with respect to executive compensation

The Director shall have the power to approve, disapprove, or modify the executive compensation of
the corporation, as defined under Regulation S-K,
17 C.F.R. 229.

10a
4.

12 U.S.C. 4501 provides:

Congressional findings

The Congress finds that—
(1) the Federal National Mortgage Association
and the Federal Home Loan Mortgage Corporation
(referred to in this section collectively as the “enterprises”), and the Federal Home Loan Banks (referred to in this section as the “Banks”), have important public missions that are reflected in the statutes and charter Acts establishing the Banks and the
enterprises;
(2) because the continued ability of the Federal
National Mortgage Association and the Federal Home
Loan Mortgage Corporation to accomplish their public missions is important to providing housing in the
United States and the health of the Nation’s economy, more effective Federal regulation is needed to
reduce the risk of failure of the enterprises;
(3) considering the current operating procedures of the Federal National Mortgage Association,
the Federal Home Loan Mortgage Corporation, and
the Federal Home Loan Banks, the enterprises and
the Banks currently pose low financial risk of insolvency;
(4) neither the enterprises nor the Banks, nor any
securities or obligations issued by the enterprises or
the Banks, are backed by the full faith and credit of
the United States;
(5) an entity regulating the Federal National
Mortgage Association and the Federal Home Loan

11a
Mortgage Corporation should have sufficient autonomy from the enterprises and special interest groups;
(6) an entity regulating such enterprises should
have the authority to establish capital standards, require financial disclosure, prescribe adequate standards for books and records and other internal controls, conduct examinations when necessary, and enforce compliance with the standards and rules that it
establishes;
(7) the Federal National Mortgage Association
and the Federal Home Loan Mortgage Corporation
have an affirmative obligation to facilitate the financing of affordable housing for low- and moderateincome families in a manner consistent with their overall public purposes, while maintaining a strong financial condition and a reasonable economic return; and
(8) the Federal Home Loan Bank Act [12 U.S.C.
1421 et seq.] should be amended to emphasize that
providing for financial safety and soundness of the
Federal Home Loan Banks is the primary mission of
the Federal Housing Finance Board.
5.

12 U.S.C. 4511 provides:

Establishment of the Federal Housing Finance Agency
(a)

Establishment

There is established the Federal Housing Finance
Agency, which shall be an independent agency of the
Federal Government.

12a
(b)

General supervisory and regulatory authority
(1)

In general

Each regulated entity shall, to the extent provided
in this chapter, be subject to the supervision and regulation of the Agency.
(2)

Authority over Fannie Mae, Freddie Mac, the Federal Home Loan Banks, and the Office of Finance

The Director shall have general regulatory authority over each regulated entity and the Office of
Finance, and shall exercise such general regulatory
authority, including such duties and authorities set
forth under section 4513 of this title, to ensure that
the purposes of this Act, the authorizing statutes, and
any other applicable law are carried out.
(c)

Savings provision

The authority of the Director to take actions under
subchapters II and III shall not in any way limit the general supervisory and regulatory authority granted to the
Director under subsection (b).
6.

12 U.S.C. 4512 provides:

Director
(a)

Establishment of position

There is established the position of the Director of
the Agency, who shall be the head of the Agency.

13a
(b)

Appointment; term
(1)

Appointment

The Director shall be appointed by the President,
by and with the advice and consent of the Senate,
from among individuals who are citizens of the United
States, have a demonstrated understanding of financial management or oversight, and have a demonstrated understanding of capital markets, including
the mortgage securities markets and housing finance.
(2)

Term

The Director shall be appointed for a term of 5
years, unless removed before the end of such term for
cause by the President.
(3)

Vacancy

A vacancy in the position of Director that occurs
before the expiration of the term for which a Director
was appointed shall be filled in the manner established under paragraph (1), and the Director appointed to fill such vacancy shall be appointed only
for the remainder of such term.
(4)

Service after end of term

An individual may serve as the Director after the
expiration of the term for which appointed until a successor has been appointed.
(5)

Transitional provision

Notwithstanding paragraphs (1) and (2), during
the period beginning on the effective date of the Federal Housing Finance Regulatory Reform Act of
2008, and ending on the date on which the Director is
appointed and confirmed, the person serving as the

14a
Director of the Office of Federal Housing Enterprise
Oversight of the Department of Housing and Urban
Development on that effective date shall act for all
purposes as, and with the full powers of, the Director.
(c)

Deputy Director of the Division of Enterprise Regulation
(1)

In general

The Agency shall have a Deputy Director of the
Division of Enterprise Regulation, who shall be designated by the Director from among individuals who
are citizens of the United States, have a demonstrated
understanding of financial management or oversight,
and have a demonstrated understanding of mortgage
securities markets and housing finance.
(2)

Functions

The Deputy Director of the Division of Enterprise
Regulation shall have such functions, powers, and duties with respect to the oversight of the enterprises
as the Director shall prescribe.
(d)

Deputy Director of the Division of Federal Home
Loan Bank Regulation
(1)

In general

The Agency shall have a Deputy Director of the
Division of Federal Home Loan Bank Regulation,
who shall be designated by the Director from among
individuals who are citizens of the United States, have
a demonstrated understanding of financial management or oversight, and have a demonstrated understanding of the Federal Home Loan Bank System and
housing finance.

15a
(2)

Functions

The Deputy Director of the Division of Federal
Home Loan Bank Regulation shall have such functions, powers, and duties with respect to the oversight of the Federal Home Loan Banks as the Director shall prescribe.
(e)

Deputy Director for Housing Mission and Goals
(1)

In general

The Agency shall have a Deputy Director for
Housing Mission and Goals, who shall be designated
by the Director from among individuals who are citizens of the United States, and have a demonstrated
understanding of the housing markets and housing
finance.
(2)

Functions

The Deputy Director for Housing Mission and Goals
shall have such functions, powers, and duties with respect to the oversight of the housing mission and goals
of the enterprises, and with respect to oversight of the
housing finance and community and economic development mission of the Federal Home Loan Banks, as
the Director shall prescribe.
(3)

Considerations

In exercising such functions, powers, and duties,
the Deputy Director for Housing Mission and Goals
shall consider the differences between the enterprises and the Federal Home Loan Banks, including
those described in section 4513(d) of this title.

16a
(f )

Acting Director

In the event of the death, resignation, sickness, or absence of the Director, the President shall designate either the Deputy Director of the Division of Enterprise
Regulation, the Deputy Director of the Division of Federal Home Loan Bank Regulation, or the Deputy Director for Housing Mission and Goals, to serve as acting Director until the return of the Director, or the appointment of a successor pursuant to subsection (b).
(g)

Limitations

The Director and each of the Deputy Directors may
not—
(1) have any direct or indirect financial interest
in any regulated entity or entity-affiliated party;
(2) hold any office, position, or employment in
any regulated entity or entity-affiliated party; or
(3) have served as an executive officer or director of any regulated entity or entity-affiliated party
at any time during the 3-year period preceding the
date of appointment or designation of such individual
as Director or Deputy Director, as applicable.

17a
7.

12 U.S.C. 4617 provides:

Authority over critically undercapitalized regulated entities
(a)

Appointment of the Agency as conservator or receiver
(1)

In general

Notwithstanding any other provision of Federal
or State law, the Director may appoint the Agency as
conservator or receiver for a regulated entity in the
manner provided under paragraph (2) or (4). All
references to the conservator or receiver under this
section are references to the Agency acting as conservator or receiver.
(2)

Discretionary appointment

The Agency may, at the discretion of the Director,
be appointed conservator or receiver for the purpose
of reorganizing, rehabilitating, or winding up the affairs of a regulated entity.
(3)

Grounds for discretionary appointment of conservator or receiver

The grounds for appointing conservator or receiver for any regulated entity under paragraph (2)
are as follows:
(A)

Assets insufficient for obligations

The assets of the regulated entity are less than
the obligations of the regulated entity to its creditors and others.

18a
(B)

Substantial dissipation

Substantial dissipation of assets or earnings
due to—
(i)
any violation of any provision of Federal or State law; or
(ii)
(C)

any unsafe or unsound practice.

Unsafe or unsound condition

An unsafe or unsound condition to transact
business.
(D)

Cease and desist orders

Any willful violation of a cease and desist order
that has become final.
(E)

Concealment

Any concealment of the books, papers, records,
or assets of the regulated entity, or any refusal to
submit the books, papers, records, or affairs of the
regulated entity, for inspection to any examiner or
to any lawful agent of the Director.
(F)

Inability to meet obligations

The regulated entity is likely to be unable to
pay its obligations or meet the demands of its
creditors in the normal course of business.
(G)

Losses

The regulated entity has incurred or is likely to
incur losses that will deplete all or substantially all
of its capital, and there is no reasonable prospect
for the regulated entity to become adequately capitalized (as defined in section 4614(a)(1) of this title).

19a
(H)

Violations of law

Any violation of any law or regulation, or any
unsafe or unsound practice or condition that is
likely to—
(i)
cause insolvency or substantial dissipation of assets or earnings; or
(ii)
entity.
(I)

weaken the condition of the regulated

Consent

The regulated entity, by resolution of its board
of directors or its shareholders or members, consents to the appointment.
(J)

Undercapitalization

The regulated entity is undercapitalized or significantly undercapitalized (as defined in section
4614(a)(3) of this title), and—
(i)
has no reasonable prospect of becoming adequately capitalized;
(ii) fails to become adequately capitalized,
as required by—
(I) section 4615(a)(1) of this title with
respect to a regulated entity; or
(II) section 4616(a)(1) of this title with
respect to a significantly undercapitalized
regulated entity;
(iii) fails to submit a capital restoration
plan acceptable to the Agency within the time
prescribed under section 4622 of this title; or

20a
(iv) materially fails to implement a capital
restoration plan submitted and accepted under
section 4622 of this title.
(K)

Critical undercapitalization

The regulated entity is critically undercapitalized, as defined in section 4614(a)(4) of this title.
(L)

Money laundering

The Attorney General notifies the Director in
writing that the regulated entity has been found
guilty of a criminal offense under section 1956 or
1957 of title 18 or section 5322 or 5324 of title 31.
(4)

Mandatory receivership
(A)

In general

The Director shall appoint the Agency as receiver for a regulated entity if the Director determines, in writing, that—
(i)
the assets of the regulated entity are,
and during the preceding 60 calendar days
have been, less than the obligations of the regulated entity to its creditors and others; or
(ii) the regulated entity is not, and during
the preceding 60 calendar days has not been,
generally paying the debts of the regulated entity (other than debts that are the subject of a
bona fide dispute) as such debts become due.

21a
(B)

Periodic determination required for critically undercapitalized regulated entity

If a regulated entity is critically undercapitalized, the Director shall make a determination, in
writing, as to whether the regulated entity meets
the criteria specified in clause (i) or (ii) of subparagraph (A)—
(i)
not later than 30 calendar days after
the regulated entity initially becomes critically
undercapitalized; and
(ii) at least once during each succeeding
30-calendar day period.
(C)

Determination not required if receivership
already in place

Subparagraph (B) does not apply with respect
to a regulated entity in any period during which
the Agency serves as receiver for the regulated
entity.
(D)

Receivership terminates conservatorship

The appointment of the Agency as receiver of a
regulated entity under this section shall immediately terminate any conservatorship established
for the regulated entity under this chapter.
(5)

Judicial review
(A)

In general

If the Agency is appointed conservator or receiver under this section, the regulated entity
may, within 30 days of such appointment, bring an
action in the United States district court for the
judicial district in which the home office of such

22a
regulated entity is located, or in the United States
District Court for the District of Columbia, for an
order requiring the Agency to remove itself as
conservator or receiver.
(B)

Review

Upon the filing of an action under subparagraph (A), the court shall, upon the merits, dismiss
such action or direct the Agency to remove itself
as such conservator or receiver.
(6)

Directors not liable for acquiescing in appointment of conservator or receiver

The members of the board of directors of a regulated entity shall not be liable to the shareholders or
creditors of the regulated entity for acquiescing in or
consenting in good faith to the appointment of the
Agency as conservator or receiver for that regulated
entity.
(7)

Agency not subject to any other Federal agency

When acting as conservator or receiver, the
Agency shall not be subject to the direction or supervision of any other agency of the United States or any
State in the exercise of the rights, powers, and privileges of the Agency.
(b)

Powers and duties of the Agency as conservator or
receiver
(1)

Rulemaking authority of the agency

The Agency may prescribe such regulations as the
Agency determines to be appropriate regarding the
conduct of conservatorships or receiverships.

23a
(2)

General powers
(A)

Successor to regulated entity

The Agency shall, as conservator or receiver,
and by operation of law, immediately succeed to—
(i)
all rights, titles, powers, and privileges
of the regulated entity, and of any stockholder,
officer, or director of such regulated entity with
respect to the regulated entity and the assets
of the regulated entity; and
(ii) title to the books, records, and assets
of any other legal custodian of such regulated
entity.
(B)

Operate the regulated entity

The Agency may, as conservator or receiver—
(i)
take over the assets of and operate the
regulated entity with all the powers of the shareholders, the directors, and the officers of the
regulated entity and conduct all business of the
regulated entity;
(ii) collect all obligations and money due
the regulated entity;
(iii) perform all functions of the regulated
entity in the name of the regulated entity which
are consistent with the appointment as conservator or receiver;
(iv) preserve and conserve the assets and
property of the regulated entity; and

24a
(v) provide by contract for assistance in
fulfilling any function, activity, action, or duty
of the Agency as conservator or receiver.
(C)

Functions of officers, directors, and shareholders of a regulated entity

The Agency may, by regulation or order, provide for the exercise of any function by any stockholder, director, or officer of any regulated entity
for which the Agency has been named conservator
or receiver.
(D)

Powers as conservator

The Agency may, as conservator, take such action as may be—
(i)
necessary to put the regulated entity
in a sound and solvent condition; and
(ii) appropriate to carry on the business
of the regulated entity and preserve and conserve the assets and property of the regulated
entity.
(E)

Additional powers as receiver

In any case in which the Agency is acting as receiver, the Agency shall place the regulated entity
in liquidation and proceed to realize upon the assets of the regulated entity in such manner as the
Agency deems appropriate, including through the
sale of assets, the transfer of assets to a limitedlife regulated entity established under subsection
(i), or the exercise of any other rights or privileges
granted to the Agency under this paragraph.

25a
(F)

Organization of new enterprise

The Agency may, as receiver for an enterprise,
organize a successor enterprise that will operate
pursuant to subsection (i).
(G)

Transfer or sale of assets and liabilities

The Agency may, as conservator or receiver,
transfer or sell any asset or liability of the regulated entity in default, and may do so without any
approval, assignment, or consent with respect to
such transfer or sale.
(H)

Payment of valid obligations

The Agency, as conservator or receiver, shall,
to the extent of proceeds realized from the performance of contracts or sale of the assets of a regulated entity, pay all valid obligations of the regulated entity that are due and payable at the time
of the appointment of the Agency as conservator
or receiver, in accordance with the prescriptions
and limitations of this section.
(I)

Subpoena authority
(i)

In general
(I)

Agency authority

The Agency may, as conservator or receiver, and for purposes of carrying out any
power, authority, or duty with respect to a
regulated entity (including determining any
claim against the regulated entity and determining and realizing upon any asset of
any person in the course of collecting money

26a
due the regulated entity), exercise any power
established under section 4588 of this title.
(II)

Applicability of law

The provisions of section 4588 of this title
shall apply with respect to the exercise of
any power under this subparagraph, in the
same manner as such provisions apply under that section.
(ii)

Subpoena

A subpoena or subpoena duces tecum may
be issued under clause (i) only by, or with the
written approval of, the Director, or the designee of the Director.
(iii)

Rule of construction

This subsection shall not be construed to
limit any rights that the Agency, in any capacity, might otherwise have under section 4517 or
4639 of this title.
(J)

Incidental powers

The Agency may, as conservator or receiver—
(i)
exercise all powers and authorities specifically granted to conservators or receivers,
respectively, under this section, and such incidental powers as shall be necessary to carry out
such powers; and
(ii) take any action authorized by this section, which the Agency determines is in the best
interests of the regulated entity or the Agency.

27a
(K)

Other provisions

(i)

Shareholders and creditors of failed regulated entity

Notwithstanding any other provision of law,
the appointment of the Agency as receiver for
a regulated entity pursuant to paragraph (2) or
(4) of subsection (a) and its succession, by operation of law, to the rights, titles, powers, and
privileges described in subsection (b)(2)(A)
shall terminate all rights and claims that the
stockholders and creditors of the regulated entity may have against the assets or charter of
the regulated entity or the Agency arising as a
result of their status as stockholders or creditors, except for their right to payment, resolution, or other satisfaction of their claims, as
permitted under subsections (b)(9), (c), and (e).
(ii)

Assets of regulated entity

Notwithstanding any other provision of law,
for purposes of this section, the charter of a
regulated entity shall not be considered an asset of the regulated entity.
(3)

Authority of receiver to determine claims
(A)

In general

The Agency may, as receiver, determine claims
in accordance with the requirements of this subsection and any regulations prescribed under paragraph (4).

28a
(B)

Notice requirements

The receiver, in any case involving the liquidation or winding up of the affairs of a closed regulated entity, shall—
(i)
promptly publish a notice to the creditors of the regulated entity to present their
claims, together with proof, to the receiver by
a date specified in the notice which shall be not
less than 90 days after the date of publication
of such notice; and
(ii) republish such notice approximately 1
month and 2 months, respectively, after the date
of publication under clause (i).
(C)

Mailing required

The receiver shall mail a notice similar to the
notice published under subparagraph (B)(i) at the
time of such publication to any creditor shown on
the books of the regulated entity—
(i)
at the last address of the creditor appearing in such books; or
(ii) upon discovery of the name and address of a claimant not appearing on the books
of the regulated entity, within 30 days after the
discovery of such name and address.
(4)

Rulemaking authority relating to determination
of claims

Subject to subsection (c), the Director may prescribe regulations regarding the allowance or disallowance of claims by the receiver and providing for

29a
administrative determination of claims and review of
such determination.
(5)

Procedures for determination of claims
(A)

Determination period

(i)

In general

Before the end of the 180-day period beginning on the date on which any claim against a
regulated entity is filed with the Agency as receiver, the Agency shall determine whether to
allow or disallow the claim and shall notify the
claimant of any determination with respect to
such claim.
(ii)

Extension of time

The period described in clause (i) may be extended by a written agreement between the
claimant and the Agency.
(iii) Mailing of notice sufficient

The requirements of clause (i) shall be
deemed to be satisfied if the notice of any determination with respect to any claim is mailed
to the last address of the claimant which appears—
(I)
tity;
or

(II)

on the books of the regulated enin the claim filed by the claimant;

(III) in documents submitted in proof of
the claim.

30a
(iv) Contents of notice of disallowance

If any claim filed under clause (i) is disallowed, the notice to the claimant shall contain—
(I)
a statement of each reason for the
disallowance; and
(II) the procedures available for obtaining agency review of the determination
to disallow the claim or judicial determination of the claim.
(B)

Allowance of proven claim

The receiver shall allow any claim received on
or before the date specified in the notice published
under paragraph (3)(B)(i) by the receiver from
any claimant which is proved to the satisfaction of
the receiver.
(C)

Disallowance of claims filed after filing period

Claims filed after the date specified in the notice published under paragraph (3)(B)(i), or the
date specified under paragraph (3)(C), shall be
disallowed and such disallowance shall be final.
(D)
(i)

Authority to disallow claims
In general

The receiver may disallow any portion of
any claim by a creditor or claim of security,
preference, or priority which is not proved to
the satisfaction of the receiver.

31a
(ii)

Payments to less than fully secured creditors

In the case of a claim of a creditor against a
regulated entity which is secured by any property or other asset of such regulated entity, the
receiver—
(I)
may treat the portion of such claim
which exceeds an amount equal to the fair
market value of such property or other asset
as an unsecured claim against the regulated
entity; and
(II) may not make any payment with
respect to such unsecured portion of the
claim, other than in connection with the disposition of all claims of unsecured creditors
of the regulated entity.
(iii) Exceptions

No provision of this paragraph shall apply
with respect to—
(I)
any extension of credit from any
Federal Reserve Bank, Federal Home Loan
Bank, or the United States Treasury; or
(II) any security interest in the assets
of the regulated entity securing any such extension of credit.
(E)

No judicial review of determination pursuant
to subparagraph (D)

No court may review the determination of the
Agency under subparagraph (D) to disallow a claim.

32a
(F)

Legal effect of filing

(i)

Statute of limitation tolled

For purposes of any applicable statute of
limitations, the filing of a claim with the receiver shall constitute a commencement of an
action.
(ii)

No prejudice to other actions

Subject to paragraph (10), the filing of a
claim with the receiver shall not prejudice any
right of the claimant to continue any action
which was filed before the date of the appointment of the receiver, subject to the determination of claims by the receiver.
(6)

Provision for judicial determination of claims
(A)

In general

The claimant may file suit on a claim (or continue an action commenced before the appointment of the receiver) in the district or territorial
court of the United States for the district within
which the principal place of business of the regulated entity is located or the United States District
Court for the District of Columbia (and such court
shall have jurisdiction to hear such claim), before
the end of the 60-day period beginning on the earlier of—
(i)
the end of the period described in paragraph (5)(A)(i) with respect to any claim
against a regulated entity for which the Agency
is receiver; or

33a
(ii) the date of any notice of disallowance
of such claim pursuant to paragraph (5)(A)(i).
(B)

Statute of limitations

A claim shall be deemed to be disallowed (other
than any portion of such claim which was allowed
by the receiver), and such disallowance shall be final, and the claimant shall have no further rights
or remedies with respect to such claim, if the
claimant fails, before the end of the 60-day period
described under subparagraph (A), to file suit on
such claim (or continue an action commenced before the appointment of the receiver).
(7)

Review of claims
(A)

Other review procedures

(i)

In general

The Agency shall establish such alternative
dispute resolution processes as may be appropriate for the resolution of claims filed under
paragraph (5)(A)(i).
(ii)

Criteria

In establishing alternative dispute resolution processes, the Agency shall strive for procedures which are expeditious, fair, independent, and low cost.
(iii) Voluntary binding or nonbinding procedures

The Agency may establish both binding and
nonbinding processes under this subparagraph,
which may be conducted by any government or

34a
private party. All parties, including the claimant and the Agency, must agree to the use of
the process in a particular case.
(B)

Consideration of incentives

The Agency shall seek to develop incentives for
claimants to participate in the alternative dispute
resolution process.
(8)

Expedited determination of claims
(A)

Establishment required

The Agency shall establish a procedure for expedited relief outside of the routine claims process
established under paragraph (5) for claimants
who—
(i)
allege the existence of legally valid and
enforceable or perfected security interests in
assets of any regulated entity for which the
Agency has been appointed receiver; and
(ii) allege that irreparable injury will occur if the routine claims procedure is followed.
(B)

Determination period

Before the end of the 90-day period beginning
on the date on which any claim is filed in accordance with the procedures established under subparagraph (A), the Director shall—
(i)

determine—

(I)
whether to allow or disallow such
claim; or

35a
(II) whether such claim should be determined pursuant to the procedures established under paragraph (5); and
(ii) notify the claimant of the determination, and if the claim is disallowed, provide a
statement of each reason for the disallowance
and the procedure for obtaining agency review
or judicial determination.
(C)

Period for filing or renewing suit

Any claimant who files a request for expedited
relief shall be permitted to file a suit, or to continue a suit filed before the date of appointment of
the receiver, seeking a determination of the rights
of the claimant with respect to such security interest after the earlier of—
(i)
the end of the 90-day period beginning
on the date of the filing of a request for expedited relief; or
(ii) the date on which the Agency denies
the claim.
(D)

Statute of limitations

If an action described under subparagraph (C)
is not filed, or the motion to renew a previously
filed suit is not made, before the end of the 30-day
period beginning on the date on which such action
or motion may be filed under subparagraph (B),
the claim shall be deemed to be disallowed as of
the end of such period (other than any portion of
such claim which was allowed by the receiver),
such disallowance shall be final, and the claimant

36a
shall have no further rights or remedies with respect to such claim.
(E)

Legal effect of filing

(i)

Statute of limitation tolled

For purposes of any applicable statute of
limitations, the filing of a claim with the receiver shall constitute a commencement of an
action.
(ii)

No prejudice to other actions

Subject to paragraph (10), the filing of a
claim with the receiver shall not prejudice any
right of the claimant to continue any action that
was filed before the appointment of the receiver, subject to the determination of claims
by the receiver.
(9)

Payment of claims
(A)

In general

The receiver may, in the discretion of the receiver, and to the extent that funds are available
from the assets of the regulated entity, pay creditor claims, in such manner and amounts as are authorized under this section, which are—
(i)

allowed by the receiver;

(ii) approved by the Agency pursuant to a
final determination pursuant to paragraph (7)
or (8); or
(iii) determined by the final judgment of
any court of competent jurisdiction.

37a
(B)

Agreements against the interest of the
Agency

No agreement that tends to diminish or defeat
the interest of the Agency in any asset acquired
by the Agency as receiver under this section shall
be valid against the Agency unless such agreement is in writing and executed by an authorized
officer or representative of the regulated entity.
(C)

Payment of dividends on claims

The receiver may, in the sole discretion of the
receiver, pay from the assets of the regulated entity dividends on proved claims at any time, and
no liability shall attach to the Agency by reason of
any such payment, for failure to pay dividends to
a claimant whose claim is not proved at the time of
any such payment.
(D)

Rulemaking authority of the Director

The Director may prescribe such rules, including definitions of terms, as the Director deems appropriate to establish a single uniform interest
rate for, or to make payments of post-insolvency
interest to creditors holding proven claims against
the receivership estates of the regulated entity,
following satisfaction by the receiver of the principal amount of all creditor claims.
(10) Suspension of legal actions
(A)

In general

After the appointment of a conservator or receiver for a regulated entity, the conservator or
receiver may, in any judicial action or proceeding

38a
to which such regulated entity is or becomes a
party, request a stay for a period not to exceed—
(i)
45 days, in the case of any conservator; and
(ii)
(B)

90 days, in the case of any receiver.

Grant of stay by all courts required

Upon receipt of a request by the conservator or
receiver under subparagraph (A) for a stay of any
judicial action or proceeding in any court with jurisdiction of such action or proceeding, the court
shall grant such stay as to all parties.
(11) Additional rights and duties
(A)

Prior final adjudication

The Agency shall abide by any final unappealable judgment of any court of competent jurisdiction which was rendered before the appointment
of the Agency as conservator or receiver.
(B)

Rights and remedies of conservator or receiver

In the event of any appealable judgment, the
Agency as conservator or receiver—
(i)
shall have all of the rights and remedies available to the regulated entity (before
the appointment of such conservator or receiver) and the Agency, including removal to
Federal court and all appellate rights; and
(ii) shall not be required to post any bond
in order to pursue such remedies.

39a
(C)

No attachment or execution

No attachment or execution may issue by any
court upon assets in the possession of the receiver,
or upon the charter, of a regulated entity for which
the Agency has been appointed receiver.
(D)

Limitation on judicial review

Except as otherwise provided in this subsection, no court shall have jurisdiction over—
(i)
any claim or action for payment from,
or any action seeking a determination of rights
with respect to, the assets or charter of any
regulated entity for which the Agency has been
appointed receiver; or
(ii) any claim relating to any act or omission of such regulated entity or the Agency as
receiver.
(E)

Disposition of assets

In exercising any right, power, privilege, or authority as conservator or receiver in connection
with any sale or disposition of assets of a regulated
entity for which the Agency has been appointed
conservator or receiver, the Agency shall conduct
its operations in a manner which—
(i)
maximizes the net present value return from the sale or disposition of such assets;
(ii) minimizes the amount of any loss realized in the resolution of cases; and
(iii) ensures adequate competition and fair
and consistent treatment of offerors.

40a
(12) Statute of limitations for actions brought by conservator or receiver
(A)

In general

Notwithstanding any provision of any contract,
the applicable statute of limitations with regard to
any action brought by the Agency as conservator
or receiver shall be—
(i)
in the case of any contract claim, the
longer of—
(I)
the 6-year period beginning on the
date on which the claim accrues; or
(II) the period applicable under State
law; and
(ii)
of—

in the case of any tort claim, the longer

(I)
the 3-year period beginning on the
date on which the claim accrues; or
(II)
law.
(B)

the period applicable under State

Determination of the date on which a claim
accrues

For purposes of subparagraph (A), the date on
which the statute of limitations begins to run on
any claim described in such subparagraph shall be
the later of—
(i)
the date of the appointment of the
Agency as conservator or receiver; or
(ii) the date on which the cause of action
accrues.

41a
(13) Revival of expired state causes of action
(A)

In general

In the case of any tort claim described under
clause (ii) for which the statute of limitations applicable under State law with respect to such claim
has expired not more than 5 years before the appointment of the Agency as conservator or receiver, the Agency may bring an action as conservator or receiver on such claim without regard to
the expiration of the statute of limitations applicable under State law.
(B)

Claims described

A tort claim referred to under clause (i) is a
claim arising from fraud, intentional misconduct
resulting in unjust enrichment, or intentional misconduct resulting in substantial loss to the regulated entity.
(14) Accounting and recordkeeping requirements
(A)

In general

The Agency as conservator or receiver shall,
consistent with the accounting and reporting practices and procedures established by the Agency,
maintain a full accounting of each conservatorship
and receivership or other disposition of a regulated entity in default.
(B)

Annual accounting or report

With respect to each conservatorship or receivership, the Agency shall make an annual accounting or report available to the Board, the Comptroller General of the United States, the Committee

42a
on Banking, Housing, and Urban Affairs of the
Senate, and the Committee on Financial Services
of the House of Representatives.
(C)

Availability of reports

Any report prepared under subparagraph (B)
shall be made available by the Agency upon request to any shareholder of a regulated entity or
any member of the public.
(D)

Recordkeeping requirement

After the end of the 6-year period beginning on
the date on which the conservatorship or receivership is terminated by the Director, the Agency may
destroy any records of such regulated entity which
the Agency, in the discretion of the Agency, determines to be unnecessary, unless directed not to do
so by a court of competent jurisdiction or governmental agency, or prohibited by law.
(15) Fraudulent transfers
(A)

In general

The Agency, as conservator or receiver, may
avoid a transfer of any interest of an entity-affiliated
party, or any person determined by the conservator or receiver to be a debtor of the regulated entity, in property, or any obligation incurred by
such party or person, that was made within 5 years
of the date on which the Agency was appointed
conservator or receiver, if such party or person
voluntarily or involuntarily made such transfer or
incurred such liability with the intent to hinder,
delay, or defraud the regulated entity, the Agency,
the conservator, or receiver.

43a
(B)

Right of recovery

To the extent a transfer is avoided under subparagraph (A), the conservator or receiver may
recover, for the benefit of the regulated entity, the
property transferred, or, if a court so orders, the
value of such property (at the time of such transfer) from—
(i)
the initial transferee of such transfer
or the entity-affiliated party or person for whose
benefit such transfer was made; or
(ii) any immediate or mediate transferee
of any such initial transferee.
(C)

Rights of transferee or obligee

The conservator or receiver may not recover
under subparagraph (B) from—
(i)
any transferee that takes for value, including satisfaction or securing of a present or
antecedent debt, in good faith; or
(ii) any immediate or mediate good faith
transferee of such transferee.
(D)

Rights under this paragraph

The rights under this paragraph of the conservator or receiver described under subparagraph
(A) shall be superior to any rights of a trustee or
any other party (other than any party which is a
Federal agency) under title 11.

44a
(16) Attachment of assets and other injunctive relief

Subject to paragraph (17), any court of competent
jurisdiction may, at the request of the conservator or
receiver, issue an order in accordance with rule 65 of
the Federal Rules of Civil Procedure, including an order placing the assets of any person designated by
the conservator or receiver under the control of the
court, and appointing a trustee to hold such assets.
(17) Standards of proof

Rule 65 of the Federal Rules of Civil Procedure
shall apply with respect to any proceeding under paragraph (16) without regard to the requirement of
such rule that the applicant show that the injury, loss,
or damage is irreparable and immediate.
(18) Treatment of claims arising from breach of contracts executed by the conservator or receiver
(A)

In general

Notwithstanding any other provision of this
subsection, any final and unappealable judgment
for monetary damages entered against the conservator or receiver for the breach of an agreement
executed or approved in writing by the conservator or receiver after the date of its appointment,
shall be paid as an administrative expense of the
conservator or receiver.
(B)

No limitation of power

Nothing in this paragraph shall be construed to
limit the power of the conservator or receiver to
exercise any rights under contract or law, including to terminate, breach, cancel, or otherwise discontinue such agreement.

45a
(19) General exceptions
(A)

Limitations

The rights of the conservator or receiver appointed under this section shall be subject to the
limitations on the powers of a receiver under sections 4402 through 4407 of this title. 1
(B)

Mortgages held in trust

(i)

In general

Any mortgage, pool of mortgages, or interest in a pool of mortgages held in trust, custodial, or agency capacity by a regulated entity
for the benefit of any person other than the
regulated entity shall not be available to satisfy
the claims of creditors generally, except that
nothing in this clause shall be construed to expand or otherwise affect the authority of any
regulated entity.
(ii)

Holding of mortgages

Any mortgage, pool of mortgages, or interest in a pool of mortgages described in clause
(i) shall be held by the conservator or receiver
appointed under this section for the beneficial
owners of such mortgage, pool of mortgages, or
interest in accordance with the terms of the
agreement creating such trust, custodial, or
other agency arrangement.

1

See References in Text note below.

46a
(iii) Liability of conservator or receiver

The liability of the conservator or receiver
appointed under this section for damages shall,
in the case of any contingent or unliquidated
claim relating to the mortgages held in trust,
be estimated in accordance with the regulations of the Director.
(c)

Priority of expenses and unsecured claims
(1)

In general

Unsecured claims against a regulated entity, or
the receiver therefor, that are proven to the satisfaction of the receiver shall have priority in the following
order:
(A)

Administrative expenses of the receiver.

(B) Any other general or senior liability of the
regulated entity (which is not a liability described under subparagraph (C) or (D). 2
(C) Any obligation subordinated to general
creditors (which is not an obligation described under
subparagraph (D)).
(D) Any obligation to shareholders or members
arising as a result of their status as shareholder or
members.
(2)

Creditors similarly situated

All creditors that are similarly situated under paragraph (1) shall be treated in a similar manner, except
that the receiver may take any action (including making
So in original. A second closing parenthesis probably should
precede the period.
2

47a
payments) that does not comply with this subsection,
if—
(A) the Director determines that such action is
necessary to maximize the value of the assets of the
regulated entity, to maximize the present value return from the sale or other disposition of the assets
of the regulated entity, or to minimize the amount of
any loss realized upon the sale or other disposition of
the assets of the regulated entity; and
(B) all creditors that are similarly situated under paragraph (1) receive not less than the amount
provided in subsection (e)(2).
(3)

Definition

As used in this subsection, the term “administrative
expenses of the receiver” includes—
(A) the actual, necessary costs and expenses incurred by the receiver in preserving the assets of a
failed regulated entity or liquidating or otherwise resolving the affairs of a failed regulated entity; and
(B) any obligations that the receiver determines
are necessary and appropriate to facilitate the smooth
and orderly liquidation or other resolution of the regulated entity.
(d)

Provisions relating to contracts entered into before
appointment of conservator or receiver
(1)

Authority to repudiate contracts

In addition to any other rights a conservator or receiver may have, the conservator or receiver for any
regulated entity may disaffirm or repudiate any contract or lease—

48a
(A)

to which such regulated entity is a party;

(B) the performance of which the conservator or receiver, in its sole discretion, determines
to be burdensome; and
(C) the disaffirmance or repudiation of which
the conservator or receiver determines, in its sole
discretion, will promote the orderly administration of the affairs of the regulated entity.
(2)

Timing of repudiation

The conservator or receiver shall determine
whether or not to exercise the rights of repudiation
under this subsection within a reasonable period following such appointment.
(3)

Claims for damages for repudiation
(A)

In general

Except as otherwise provided under subparagraph (C) and paragraphs (4), (5), and (6), the liability of the conservator or receiver for the disaffirmance or repudiation of any contract pursuant
to paragraph (1) shall be—
(i)
limited to actual direct compensatory
damages; and
(ii)

determined as of—

(I)
the date of the appointment of the
conservator or receiver; or
(II) in the case of any contract or
agreement referred to in paragraph (8), the
date of the disaffirmance or repudiation of
such contract or agreement.

49a
(B)

No liability for other damages

For purposes of subparagraph (A), the term
“actual direct compensatory damages” shall not
include—
(i)

punitive or exemplary damages;

(ii) damages for lost profits or opportunity; or
(iii)
(C)

damages for pain and suffering.

Measure of damages for repudiation of financial contracts

In the case of any qualified financial contract or
agreement to which paragraph (8) applies, compensatory damages shall be—
(i)
deemed to include normal and reasonable costs of cover or other reasonable measures
of damages utilized in the industries for such
contract and agreement claims; and
(ii) paid in accordance with this subsection and subsection (e), except as otherwise
specifically provided in this section.
(4)

Leases under which the regulated entity is the
lessee
(A)

In general

If the conservator or receiver disaffirms or repudiates a lease under which the regulated entity
was the lessee, the conservator or receiver shall
not be liable for any damages (other than damages
determined under subparagraph (B)) for the disaffirmance or repudiation of such lease.

50a
(B)

Payments of rent

Notwithstanding subparagraph (A), the lessor
under a lease to which that subparagraph applies
shall—
(i)
be entitled to the contractual rent accruing before the later of the date on which—
(I)
the notice of disaffirmance or repudiation is mailed; or
(II) the disaffirmance or repudiation
becomes effective, unless the lessor is in default or breach of the terms of the lease;
(ii) have no claim for damages under any
acceleration clause or other penalty provision
in the lease; and
(iii) have a claim for any unpaid rent, subject to all appropriate offsets and defenses, due
as of the date of the appointment, which shall
be paid in accordance with this subsection and
subsection (e).
(5)

Leases under which the regulated entity is the
lessor
(A)

In general

If the conservator or receiver repudiates an unexpired written lease of real property of the regulated entity under which the regulated entity is
the lessor and the lessee is not, as of the date of
such repudiation, in default, the lessee under such
lease may either—
(i)
treat the lease as terminated by such
repudiation; or

51a
(ii) remain in possession of the leasehold
interest for the balance of the term of the lease,
unless the lessee defaults under the terms of
the lease after the date of such repudiation.
(B)

Provisions applicable to lessee remaining in
possession

If any lessee under a lease described under
subparagraph (A) remains in possession of a leasehold interest under clause (ii) of subparagraph
(A)—
(i)

the lessee—

(I)
shall continue to pay the contractual rent pursuant to the terms of the lease
after the date of the repudiation of such
lease; and
(II) may offset against any rent payment which accrues after the date of the repudiation of the lease, and any damages
which accrue after such date due to the nonperformance of any obligation of the regulated entity under the lease after such date;
and
(ii) the conservator or receiver shall not
be liable to the lessee for any damages arising
after such date as a result of the repudiation,
other than the amount of any offset allowed under clause (i)(II).

52a
(6)

Contracts for the sale of real property
(A)

In general

If the conservator or receiver repudiates any
contract for the sale of real property and the purchaser of such real property under such contract
is in possession, and is not, as of the date of such repudiation, in default, such purchaser may either—
(i)
treat the contract as terminated by
such repudiation; or
(ii) remain in possession of such real
property.
(B)

Provisions applicable to purchaser remaining in possession

If any purchaser of real property under any
contract described under subparagraph (A) remains
in possession of such property under clause (ii) of
subparagraph (A)—
(i)

the purchaser—

(I)
shall continue to make all payments
due under the contract after the date of the
repudiation of the contract; and
(II) may offset against any such payments any damages which accrue after such
date due to the nonperformance (after such
date) of any obligation of the regulated entity under the contract; and

53a
(ii)

the conservator or receiver shall—

(I)
not be liable to the purchaser for
any damages arising after such date as a result of the repudiation, other than the amount
of any offset allowed under clause (i)(II);
(II) deliver title to the purchaser in accordance with the provisions of the contract;
and
(III) have no obligation under the contract other than the performance required
under subclause (II).
(C)

Assignment and sale allowed
(i)

In general

No provision of this paragraph shall be construed as limiting the right of the conservator
or receiver to assign the contract described under subparagraph (A), and sell the property
subject to the contract and the provisions of
this paragraph.
(ii)

No liability after assignment and sale

If an assignment and sale described under
clause (i) is consummated, the conservator or
receiver shall have no further liability under
the contract described under subparagraph
(A), or with respect to the real property which
was the subject of such contract.

54a
(7)

Service contracts
(A)

Services performed before appointment

In the case of any contract for services between
any person and any regulated entity for which the
Agency has been appointed conservator or receiver,
any claim of such person for services performed
before the appointment of the conservator or receiver shall be—
(i)
a claim to be paid in accordance with
subsections (b) and (e); and
(ii) deemed to have arisen as of the date
on which the conservator or receiver was appointed.
(B)

Services performed after appointment and
prior to repudiation

If, in the case of any contract for services described under subparagraph (A), the conservator
or receiver accepts performance by the other person before the conservator or receiver makes any
determination to exercise the right of repudiation
of such contract under this section—
(i)
the other party shall be paid under the
terms of the contract for the services performed;
and
(ii) the amount of such payment shall be
treated as an administrative expense of the conservatorship or receivership.

55a
(C)

Acceptance of performance no bar to subsequent repudiation

The acceptance by the conservator or receiver
of services referred to under subparagraph (B) in
connection with a contract described in such subparagraph shall not affect the right of the conservator or receiver to repudiate such contract under
this section at any time after such performance.
(8)

Certain qualified financial contracts
(A)

Rights of parties to contracts

Subject to paragraphs (9) and (10), and notwithstanding any other provision of this chapter
(other than subsection (b)(9)(B) of this section),
any other Federal law, or the law of any State, no
person shall be stayed or prohibited from exercising—
(i)
any right of that person to cause the
termination, liquidation, or acceleration of any
qualified financial contract with a regulated entity that arises upon the appointment of the
Agency as receiver for such regulated entity at
any time after such appointment;
(ii) any right under any security agreement or arrangement or other credit enhancement relating to one or more qualified financial
contracts; or
(iii) any right to offset or net out any termination value, payment amount, or other transfer obligation arising under or in connection

56a
with 1 or more contracts and agreements described in clause (i), including any master
agreement for such contracts or agreements.
(B)

Applicability of other provisions

Subsection (b)(10) shall apply in the case of any
judicial action or proceeding brought against any
receiver referred to under subparagraph (A), or
the regulated entity for which such receiver was
appointed, by any party to a contract or agreement described under subparagraph (A)(i) with
such regulated entity.
(C)

Certain transfers not avoidable

(i)

In general

Notwithstanding paragraph (11), or any
other provision of Federal or State law relating
to the avoidance of preferential or fraudulent
transfers, the Agency, whether acting as such
or as conservator or receiver of a regulated entity, may not avoid any transfer of money or
other property in connection with any qualified
financial contract with a regulated entity.
(ii)

Exception for certain transfers

Clause (i) shall not apply to any transfer of
money or other property in connection with any
qualified financial contract with a regulated entity if the Agency determines that the transferee had actual intent to hinder, delay, or defraud such regulated entity, the creditors of
such regulated entity, or any conservator or receiver appointed for such regulated entity.

57a
(D)

Certain contracts and agreements defined

In this subsection the following definitions
shall apply:
(i)

Qualified financial contract

The term “qualified financial contract” means
any securities contract, commodity contract,
forward contract, repurchase agreement, swap
agreement, and any similar agreement that the
Agency determines by regulation, resolution,
or order to be a qualified financial contract for
purposes of this paragraph.
(ii)

Securities contract

The term “securities contract”—
(I)
means a contract for the purchase, sale, or loan of a security, a certificate
of deposit, a mortgage loan, or any interest
in a mortgage loan, a group or index of securities, certificates of deposit, or mortgage
loans or interests therein (including any interest therein or based on the value thereof )
or any option on any of the foregoing, including any option to purchase or sell any such
security, certificate of deposit, mortgage
loan, interest, group or index, or option, and
including any repurchase or reverse repurchase transaction on any such security, certificate of deposit, mortgage loan, interest,
group or index, or option;
(II)
does not include any purchase, sale,
or repurchase obligation under a participation in a commercial mortgage loan, unless

58a
the Agency determines by regulation, resolution, or order to include any such agreement within the meaning of such term;
(III) means any option entered into on
a national securities exchange relating to
foreign currencies;
(IV) means the guarantee by or to any
securities clearing agency of any settlement
of cash, securities, certificates of deposit,
mortgage loans or interests therein, group
or index of securities, certificates of deposit,
or mortgage loans or interests therein (including any interest therein or based on the
value thereof ) or option on any of the foregoing, including any option to purchase or
sell any such security, certificate of deposit,
mortgage loan, interest, group or index, or
option;
(V)

means any margin loan;

(VI) means any other agreement or
transaction that is similar to any agreement
or transaction referred to in this clause;
(VII) means any combination of the
agreements or transactions referred to in
this clause;
(VIII) means any option to enter into any
agreement or transaction referred to in this
clause;
(IX) means a master agreement that
provides for an agreement or transaction referred to in subclause (I), (III), (IV), (V),

59a
(VI), (VII), or (VIII), together with all supplements to any such master agreement,
without regard to whether the master
agreement provides for an agreement or
transaction that is not a securities contract
under this clause, except that the master
agreement shall be considered to be a securities contract under this clause only with
respect to each agreement or transaction
under the master agreement that is referred
to in subclause (I), (III), (IV), (V), (VI),
(VII), or (VIII); and
(X)
means any security agreement or
arrangement or other credit enhancement
related to any agreement or transaction referred to in this clause, including any guarantee or reimbursement obligation in connection with any agreement or transaction
referred to in this clause.
(iii) Commodity contract

The term “commodity contract” means—
(I)
with respect to a futures commission merchant, a contract for the purchase
or sale of a commodity for future delivery
on, or subject to the rules of, a contract market or board of trade;
(II)
with respect to a foreign futures
commission merchant, a foreign future;
(III) with respect to a leverage transaction merchant, a leverage transaction;

60a
(IV) with respect to a clearing organization, a contract for the purchase or sale of
a commodity for future delivery on, or subject to the rules of, a contract market or
board of trade that is cleared by such clearing organization, or commodity option traded
on, or subject to the rules of, a contract market or board of trade that is cleared by such
clearing organization;
(V)
with respect to a commodity options dealer, a commodity option;
(VI) any other agreement or transaction that is similar to any agreement or
transaction referred to in this clause;
(VII) any combination of the agreements or transactions referred to in this
clause;
(VIII) any option to enter into any agreement or transaction referred to in this
clause;
(IX) a master agreement that provides
for an agreement or transaction referred to
in subclause (I), (II), (III), (IV), (V), (VI),
(VII), or (VIII), together with all supplements to any such master agreement, without regard to whether the master agreement provides for an agreement or transaction that is not a commodity contract under
this clause, except that the master agreement shall be considered to be a commodity
contract under this clause only with respect
to each agreement or transaction under the

61a
master agreement that is referred to in subclause (I), (II), (III), (IV), (V), (VI), (VII), or
(VIII); or
(X)
any security agreement or arrangement or other credit enhancement related to any agreement or transaction referred to in this clause, including any guarantee or reimbursement obligation in connection with any agreement or transaction
referred to in this clause.
(iv) Forward contract

The term “forward contract” means—
(I)
a contract (other than a commodity contract) for the purchase, sale, or transfer of a commodity or any similar good, article, service, right, or interest which is presently or in the future becomes the subject of
dealing in the forward contract trade, or
product or byproduct thereof, with a maturity date more than 2 days after the date
on which the contract is entered into, including a repurchase transaction, reverse repurchase transaction, consignment, lease, swap,
hedge transaction, deposit, loan, option, allocated transaction, unallocated transaction,
or any other similar agreement;
(II)
any combination of agreements or
transactions referred to in subclauses (I)
and (III);
(III) any option to enter into any agreement or transaction referred to in subclause
(I) or (II);

62a
(IV) a master agreement that provides
for an agreement or transaction referred to
in subclauses (I), (II), or (III), together with
all supplements to any such master agreement, without regard to whether the master
agreement provides for an agreement or
transaction that is not a forward contract
under this clause, except that the master
agreement shall be considered to be a forward contract under this clause only with respect to each agreement or transaction under the master agreement that is referred to
in subclause (I), (II), or (III); or
(V)
any security agreement or arrangement or other credit enhancement related to any agreement or transaction referred to in subclause (I), (II), (III), or (IV),
including any guarantee or reimbursement
obligation in connection with any agreement
or transaction referred to in any such subclause.
(v)

Repurchase agreement

The term “repurchase agreement” (including a reverse repurchase agreement)—
(I)
means an agreement, including related terms, which provides for the transfer of
one or more certificates of deposit, mortgagerelated securities (as such term is defined
in section 78c of title 15), mortgage loans,
interests in mortgage-related securities or
mortgage loans, eligible bankers’ acceptances,

63a
qualified foreign government securities (defined for purposes of this clause as a security that is a direct obligation of, or that is
fully guaranteed by, the central government
of a member of the Organization for Economic Cooperation and Development, as determined by regulation or order adopted by
the appropriate Federal banking authority),
or securities that are direct obligations of, or
that are fully guaranteed by, the United
States or any agency of the United States
against the transfer of funds by the transferee of such certificates of deposit, eligible
bankers’ acceptances, securities, mortgage
loans, or interests with a simultaneous
agreement by such transferee to transfer to
the transferor thereof certificates of deposit, eligible bankers’ acceptances, securities, mortgage loans, or interests as described above, at a date certain not later
than 1 year after such transfers or on demand, against the transfer of funds, or any
other similar agreement;
(II) does not include any repurchase
obligation under a participation in a commercial mortgage loan, unless the Agency
determines by regulation, resolution, or order to include any such participation within
the meaning of such term;
(III) means any combination of agreements or transactions referred to in subclauses (I) and (IV);

64a
(IV) means any option to enter into any
agreement or transaction referred to in subclause (I) or (III);
(V)
means a master agreement that
provides for an agreement or transaction referred to in subclause (I), (III), or (IV), together with all supplements to any such master agreement, without regard to whether the
master agreement provides for an agreement or transaction that is not a repurchase
agreement under this clause, except that the
master agreement shall be considered to be
a repurchase agreement under this subclause only with respect to each agreement
or transaction under the master agreement
that is referred to in subclause (I), (III), or
(IV); and
(VI) means any security agreement or
arrangement or other credit enhancement
related to any agreement or transaction referred to in subclause (I), (III), (IV), or (V),
including any guarantee or reimbursement
obligation in connection with any agreement
or transaction referred to in any such subclause.
(vi) Swap agreement

The term “swap agreement” means—
(I)
any agreement, including the terms
and conditions incorporated by reference in
any such agreement, which is an interest
rate swap, option, future, or forward agreement, including a rate floor, rate cap, rate

65a
collar, cross-currency rate swap, and basis
swap; a spot, same day-tomorrow, tomorrownext, forward, or other foreign exchange or
precious metals agreement; a currency swap,
option, future, or forward agreement; an equity index or equity swap, option, future, or
forward agreement; a debt index or debt
swap, option, future, or forward agreement;
a total return, credit spread or credit swap,
option, future, or forward agreement; a
commodity index or commodity swap, option, future, or forward agreement; or a
weather swap, weather derivative, or weather
option;
(II)
any agreement or transaction that
is similar to any other agreement or transaction referred to in this clause and that is
of a type that has been, is presently, or in
the future becomes, the subject of recurrent
dealings in the swap markets (including
terms and conditions incorporated by reference in such agreement) and that is a forward, swap, future, or option on one or more
rates, currencies, commodities, equity securities or other equity instruments, debt securities or other debt instruments, quantitative measures associated with an occurrence, extent of an occurrence, or contingency associated with a financial, commercial, or economic consequence, or economic
or financial indices or measures of economic
or financial risk or value;

66a
(III) any combination of agreements or
transactions referred to in this clause;
(IV) any option to enter into any agreement or transaction referred to in this clause;
(V)
a master agreement that provides
for an agreement or transaction referred to
in subclause (I), (II), (III), or (IV), together
with all supplements to any such master
agreement, without regard to whether the
master agreement contains an agreement or
transaction that is not a swap agreement under this clause, except that the master agreement shall be considered to be a swap agreement under this clause only with respect to
each agreement or transaction under the
master agreement that is referred to in subclause (I), (II), (III), or (IV); and
(VI) any security agreement or arrangement or other credit enhancement related to any agreements or transactions referred to in subclause (I), (II), (III), (IV), or
(V), including any guarantee or reimbursement obligation in connection with any
agreement or transaction referred to in any
such subclause.
(vii) Treatment of master agreement as one
agreement

Any master agreement for any contract or
agreement described in any preceding clause of
this subparagraph (or any master agreement
for such master agreement or agreements), together with all supplements to such master

67a
agreement, shall be treated as a single agreement and a single qualified financial contract.
If a master agreement contains provisions relating to agreements or transactions that are
not themselves qualified financial contracts,
the master agreement shall be deemed to be a
qualified financial contract only with respect to
those transactions that are themselves qualified financial contracts.
(viii) Transfer

The term “transfer” means every mode, direct or indirect, absolute or conditional, voluntary or involuntary, of disposing of or parting
with property or with an interest in property,
including retention of title as a security interest and foreclosure of the equity of redemption
of the regulated entity.
(E)

Certain protections in event of appointment
of conservator

Notwithstanding any other provision of this
section, any other Federal law, or the law of any
State (other than paragraph (10) of this subsection
and subsection (b)(9)(B)), no person shall be
stayed or prohibited from exercising—
(i)
any right such person has to cause the
termination, liquidation, or acceleration of any
qualified financial contract with a regulated entity in a conservatorship based upon a default
under such financial contract which is enforceable under applicable noninsolvency law;

68a
(ii) any right under any security agreement or arrangement or other credit enhancement relating to 1 or more such qualified financial contracts; or
(iii) any right to offset or net out any termination values, payment amounts, or other transfer obligations arising under or in connection
with such qualified financial contracts.
(F)

Clarification

No provision of law shall be construed as limiting the right or power of the Agency, or authorizing any court or agency to limit or delay in any
manner, the right or power of the Agency to transfer any qualified financial contract in accordance
with paragraphs (9) and (10), or to disaffirm or repudiate any such contract in accordance with subsection (d)(1).
(G)

Walkaway clauses not effective

(i)

In general

Notwithstanding the provisions of subparagraphs (A) and (E), and sections 4403 and 4404
of this title, no walkaway clause shall be enforceable in a qualified financial contract of a
regulated entity in default.
(ii)

Walkaway clause defined

For purposes of this subparagraph, the term
“walkaway clause” means a provision in a qualified financial contract that, after calculation of
a value of a party’s position or an amount due
to or from 1 of the parties in accordance with

69a
its terms upon termination, liquidation, or acceleration of the qualified financial contract, either does not create a payment obligation of a
party or extinguishes a payment obligation of a
party in whole or in part solely because of the
status of such party as a nondefaulting party.
(9)

Transfer of qualified financial contracts

In making any transfer of assets or liabilities of a
regulated entity in default which includes any qualified financial contract, the conservator or receiver for
such regulated entity shall either—
(A) transfer to 1 person—
(i)
all qualified financial contracts between
any person (or any affiliate of such person) and
the regulated entity in default;
(ii) all claims of such person (or any affiliate of such person) against such regulated entity under any such contract (other than any
claim which, under the terms of any such contract, is subordinated to the claims of general
unsecured creditors of such regulated entity);
(iii) all claims of such regulated entity
against such person (or any affiliate of such
person) under any such contract; and
(iv) all property securing, or any other
credit enhancement for any contract described
in clause (i), or any claim described in clause (ii)
or (iii) under any such contract; or

70a
(B)

transfer none of the financial contracts,
claims, or property referred to under subparagraph (A) (with respect to such person
and any affiliate of such person).

(10) Notification of transfer
(A)

In general

The conservator or receiver shall notify any
person that is a party to a contract or transfer by
5:00 p.m. (Eastern Standard Time) on the business day following the date of the appointment of
the receiver in the case of a receivership, or the
business day following such transfer in the case of
a conservatorship, if—
(i)
the conservator or receiver for a regulated entity in default makes any transfer of
the assets and liabilities of such regulated entity; and
(ii) such transfer includes any qualified financial contract.
(B)
(i)

Certain rights not enforceable
Receivership

A person who is a party to a qualified financial contract with a regulated entity may not
exercise any right that such person has to terminate, liquidate, or net such contract under
paragraph (8)(A) of this subsection or under
section 4403 or 4404 of this title, solely by reason of or incidental to the appointment of a receiver for the regulated entity (or the insolvency
or financial condition of the regulated entity for
which the receiver has been appointed)—

71a
(I)
until 5:00 p.m. (Eastern Standard
Time) on the business day following the date
of the appointment of the receiver; or
(II)
after the person has received notice that the contract has been transferred
pursuant to paragraph (9)(A).
(ii)

Conservatorship

A person who is a party to a qualified financial contract with a regulated entity may not
exercise any right that such person has to terminate, liquidate, or net such contract under
paragraph (8)(E) of this subsection or under
section 4403 or 4404 of this title, solely by reason of or incidental to the appointment of a conservator for the regulated entity (or the insolvency or financial condition of the regulated entity for which the conservator has been appointed).
(iii) Notice

For purposes of this paragraph, the conservator or receiver of a regulated entity shall be
deemed to have notified a person who is a party
to a qualified financial contract with such regulated entity, if the conservator or receiver has
taken steps reasonably calculated to provide
notice to such person by the time specified in
subparagraph (A).
(C)

Business day defined

For purposes of this paragraph, the term “business day” means any day other than any Saturday,
Sunday, or any day on which either the New York

72a
Stock Exchange or the Federal Reserve Bank of
New York is closed.
(11) Disaffirmance or repudiation of qualified financial contracts

In exercising the rights of disaffirmance or repudiation of a conservator or receiver with respect to
any qualified financial contract to which a regulated
entity is a party, the conservator or receiver for such
institution shall either—
(A) disaffirm or repudiate all qualified financial contracts between—
(i)
any person or any affiliate of such person; and
(ii)

the regulated entity in default; or

(B) disaffirm or repudiate none of the qualified financial contracts referred to in subparagraph (A) (with respect to such person or any affiliate of such person).
(12) Certain security interests not avoidable

No provision of this subsection shall be construed
as permitting the avoidance of any legally enforceable or perfected security interest in any of the assets
of any regulated entity, except where such an interest is taken in contemplation of the insolvency of the
regulated entity, or with the intent to hinder, delay,
or defraud the regulated entity or the creditors of
such regulated entity.

73a
(13) Authority to enforce contracts
(A)

In general

Notwithstanding any provision of a contract
providing for termination, default, acceleration, or
exercise of rights upon, or solely by reason of, insolvency or the appointment of, or the exercise of
rights or powers by, a conservator or receiver, the
conservator or receiver may enforce any contract,
other than a contract for liability insurance for a
director or officer, or a contract or a regulated entity bond, entered into by the regulated entity.
(B)

Certain rights not affected

No provision of this paragraph may be construed as impairing or affecting any right of the
conservator or receiver to enforce or recover under a liability insurance contract for an officer or
director, or regulated entity bond under other applicable law.
(C)
(i)

Consent requirement
In general

Except as otherwise provided under this section, no person may exercise any right or power
to terminate, accelerate, or declare a default
under any contract to which a regulated entity
is a party, or to obtain possession of or exercise
control over any property of the regulated entity, or affect any contractual rights of the regulated entity, without the consent of the conservator or receiver, as appropriate, for a period of—

74a
(I)
45 days after the date of appointment of a conservator; or
(II)
90 days after the date of appointment of a receiver.
(ii)

Exceptions

This subparagraph shall not—
(I)
apply to a contract for liability insurance for an officer or director;
(II)
apply to the rights of parties to certain qualified financial contracts under subsection (d)(8); and
(III) be construed as permitting the
conservator or receiver to fail to comply with
otherwise enforceable provisions of such
contracts.
(14) Savings clause

The meanings of terms used in this subsection are
applicable for purposes of this subsection only, and
shall not be construed or applied so as to challenge or
affect the characterization, definition, or treatment
of any similar terms under any other statute, regulation, or rule, including the Gramm-Leach-Bliley Act,
the Legal Certainty for Bank Products Act of 2000
[7 U.S.C. 27 to 27f ], the securities laws (as that term
is defined in section 78c(a)(47) of title 15), and the
Commodity Exchange Act [7 U.S.C. 1 et seq.].
(15) Exception for Federal Reserve and Federal
Home Loan Banks

No provision of this subsection shall apply with respect to—

75a
(A) any extension of credit from any Federal
Home Loan Bank or Federal Reserve Bank to any
regulated entity; or
(B) any security interest in the assets of the
regulated entity securing any such extension of
credit.
(e)

Valuation of claims in default
(1)

In general

Notwithstanding any other provision of Federal
law or the law of any State, and regardless of the
method which the Agency determines to utilize with
respect to a regulated entity in default or in danger
of default, including transactions authorized under
subsection (i), this subsection shall govern the rights
of the creditors of such regulated entity.
(2)

Maximum liability

The maximum liability of the Agency, acting as receiver or in any other capacity, to any person having
a claim against the receiver or the regulated entity
for which such receiver is appointed shall be not more
than the amount that such claimant would have received if the Agency had liquidated the assets and liabilities of the regulated entity without exercising
the authority of the Agency under subsection (i).
(f )

Limitation on court action

Except as provided in this section or at the request
of the Director, no court may take any action to restrain
or affect the exercise of powers or functions of the Agency
as a conservator or a receiver.

76a
(g)

Liability of directors and officers
(1)

In general

A director or officer of a regulated entity may be
held personally liable for monetary damages in any
civil action described in paragraph (2) brought by, on
behalf of, or at the request or direction of the Agency,
and prosecuted wholly or partially for the benefit of
the Agency—
(A) acting as conservator or receiver of such
regulated entity; or
(B) acting based upon a suit, claim, or cause
of action purchased from, assigned by, or otherwise conveyed by such receiver or conservator.
(2)

Actions addressed

Paragraph (1) applies in any civil action for gross
negligence, including any similar conduct or conduct
that demonstrates a greater disregard of a duty of care
than gross negligence, including intentional tortious
conduct, as such terms are defined and determined
under applicable State law.
(3)

No limitation

Nothing in this subsection shall impair or affect
any right of the Agency under other applicable law.
(h)

Damages

In any proceeding related to any claim against a director, officer, employee, agent, attorney, accountant,
appraiser, or any other party employed by or providing
services to a regulated entity, recoverable damages determined to result from the improvident or otherwise

77a
improper use or investment of any assets of the regulated entity shall include principal losses and appropriate interest.
(i)

Limited-life regulated entities
(1)

Organization
(A)

Purpose

The Agency, as receiver appointed pursuant to
subsection (a)—
(i)
may, in the case of a Federal Home
Loan Bank, organize a limited-life regulated
entity with those powers and attributes of the
Federal Home Loan Bank in default or in danger of default as the Director determines necessary, subject to the provisions of this subsection, and the Director shall grant a temporary
charter to that limited-life regulated entity,
and that limited-life regulated entity may operate subject to that charter; and
(ii) shall, in the case of an enterprise, organize a limited-life regulated entity with respect to that enterprise in accordance with this
subsection.
(B)

Authorities

Upon the creation of a limited-life regulated
entity under subparagraph (A), the limited-life
regulated entity may—
(i)
assume such liabilities of the regulated entity that is in default or in danger of default as the Agency may, in its discretion, de-

78a
termine to be appropriate, except that the liabilities assumed shall not exceed the amount of
assets purchased or transferred from the regulated entity to the limited-life regulated entity;
(ii) purchase such assets of the regulated
entity that is in default, or in danger of default
as the Agency may, in its discretion, determine
to be appropriate; and
(iii) perform any other temporary function
which the Agency may, in its discretion, prescribe in accordance with this section.
(2)

Charter and establishment
(A)
(i)

Transfer of charter
Fannie Mae

If the Agency is appointed as receiver for
the Federal National Mortgage Association,
the limited-life regulated entity established under this subsection with respect to such enterprise shall, by operation of law and immediately upon its organization—
(I)
succeed to the charter of the Federal National Mortgage Association, as set
forth in the Federal National Mortgage
Association Charter Act [12 U.S.C. 1716
et seq.]; and
(II)
thereafter operate in accordance
with, and subject to, such charter, this Act,
and any other provision of law to which the
Federal National Mortgage Association is

79a
subject, except as otherwise provided in this
subsection.
(ii)

Freddie Mac

If the Agency is appointed as receiver for
the Federal Home Loan Mortgage Corporation, the limited-life regulated entity established under this subsection with respect to
such enterprise shall, by operation of law and
immediately upon its organization—
(I)
succeed to the charter of the Federal Home Loan Mortgage Corporation, as
set forth in the Federal Home Loan Mortgage Corporation Charter Act 3 [12 U.S.C.
1451 et seq.]; and
(II)
thereafter operate in accordance
with, and subject to, such charter, this Act,
and any other provision of law to which the
Federal Home Loan Mortgage Corporation
is subject, except as otherwise provided in
this subsection.
(B)

Interests in and assets and obligations of regulated entity in default

Notwithstanding subparagraph (A) or any other
provision of law—
(i)
a limited-life regulated entity shall assume, acquire, or succeed to the assets or liabilities of a regulated entity only to the extent
that such assets or liabilities are transferred by
the Agency to the limited-life regulated entity
3

See References in Text note below.

80a
in accordance with, and subject to the restrictions set forth in, paragraph (1)(B);
(ii) a limited-life regulated entity shall not
assume, acquire, or succeed to any obligation
that a regulated entity for which a receiver has
been appointed may have to any shareholder of
the regulated entity that arises as a result of
the status of that person as a shareholder of the
regulated entity; and
(iii) no shareholder or creditor of a regulated entity shall have any right or claim against
the charter of the regulated entity once the
Agency has been appointed receiver for the
regulated entity and a limited-life regulated
entity succeeds to the charter pursuant to subparagraph (A).
(C)

Limited-life regulated entity treated as being
in default for certain purposes

A limited-life regulated entity shall be treated
as a regulated entity in default at such times and
for such purposes as the Agency may, in its discretion, determine.
(D)

Management

Upon its establishment, a limited-life regulated
entity shall be under the management of a board
of directors consisting of not fewer than 5 nor
more than 10 members appointed by the Agency.
(E)

Bylaws

The board of directors of a limited-life regulated entity shall adopt such bylaws as may be approved by the Agency.

81a
(3)

Capital stock
(A)

No agency requirement

The Agency is not required to pay capital stock
into a limited-life regulated entity or to issue any
capital stock on behalf of a limited-life regulated
entity established under this subsection.
(B)

Authority

If the Director determines that such action is
advisable, the Agency may cause capital stock or
other securities of a limited-life regulated entity
established with respect to an enterprise to be issued and offered for sale, in such amounts and on
such terms and conditions as the Director may determine, in the discretion of the Director.
(4)

Investments

Funds of a limited-life regulated entity shall be
kept on hand in cash, invested in obligations of the
United States or obligations guaranteed as to principal and interest by the United States, or deposited
with the Agency, or any Federal reserve bank.
(5)

Exempt tax status

Notwithstanding any other provision of Federal
or State law, a limited-life regulated entity, its franchise, property, and income shall be exempt from
all taxation now or hereafter imposed by the United
States, by any territory, dependency, or possession
thereof, or by any State, county, municipality, or local
taxing authority.

82a
(6)

Winding up
(A)

In general

Subject to subparagraphs (B) and (C), not later
than 2 years after the date of its organization, the
Agency shall wind up the affairs of a limited-life
regulated entity.
(B)

Extension

The Director may, in the discretion of the Director, extend the status of a limited-life regulated
entity for 3 additional 1-year periods.
(C)

Termination of status as limited-life regulated entity

(i)

In general

Upon the sale by the Agency of 80 percent
or more of the capital stock of a limited-life regulated entity, as defined in clause (iv), to 1 or
more persons (other than the Agency)—
(I)
the status of the limited-life regulated entity as such shall terminate; and
(II)
the entity shall cease to be a
limited-life regulated entity for purposes of
this subsection.
(ii)
(I)

Divestiture of remaining stock, if any
In general

Not later than 1 year after the date on
which the status of a limited-life regulated
entity is terminated pursuant to clause (i),
the Agency shall sell to 1 or more persons

83a
(other than the Agency) any remaining capital stock of the former limited-life regulated entity.
(II)

Extension authorized

The Director may extend the period referred to in subclause (I) for not longer than
an additional 2 years, if the Director determines that such action would be in the public
interest.
(iii)

Savings clause

Notwithstanding any provision of law, other
than clause (ii), the Agency shall not be required to sell the capital stock of an enterprise
or a limited-life regulated entity established
with respect to an enterprise.
(iv)

Applicability

This subparagraph applies only with respect
to a limited-life regulated entity that is established with respect to an enterprise.
(7)

Transfer of assets and liabilities

(A)
(i)

In general
Transfer of assets and liabilities

The Agency, as receiver, may transfer any
assets and liabilities of a regulated entity in default, or in danger of default, to the limited-life
regulated entity in accordance with and subject
to the restrictions of paragraph (1).

84a
(ii)

Subsequent transfers

At any time after the establishment of a
limited-life regulated entity, the Agency, as receiver, may transfer any assets and liabilities
of the regulated entity in default, or in danger
of default, as the Agency may, in its discretion,
determine to be appropriate in accordance with
and subject to the restrictions of paragraph (1).
(iii)

Effective without approval

The transfer of any assets or liabilities of a
regulated entity in default or in danger of default to a limited-life regulated entity shall be
effective without any further approval under
Federal or State law, assignment, or consent
with respect thereto.
(iv) Equitable treatment of similarly situated
creditors

The Agency shall treat all creditors of a regulated entity in default or in danger of default
that are similarly situated under subsection
(c)(1) in a similar manner in exercising the authority of the Agency under this subsection to
transfer any assets or liabilities of the regulated entity to the limited-life regulated entity
established with respect to such regulated entity, except that the Agency may take actions
(including making payments) that do not comply with this clause, if—
(I)
the Director determines that such
actions are necessary to maximize the value
of the assets of the regulated entity, to maximize the present value return from the sale

85a
or other disposition of the assets of the regulated entity, or to minimize the amount of
any loss realized upon the sale or other disposition of the assets of the regulated entity;
and
(II)
all creditors that are similarly situated under subsection (c)(1) receive not
less than the amount provided in subsection
(e)(2).
(v)

Limitation on transfer of liabilities

Notwithstanding any other provision of law,
the aggregate amount of liabilities of a regulated entity that are transferred to, or assumed
by, a limited-life regulated entity may not exceed the aggregate amount of assets of the regulated entity that are transferred to, or purchased by, the limited-life regulated entity.
(8)

Regulations

The Agency may promulgate such regulations as
the Agency determines to be necessary or appropriate to implement this subsection.
(9)

Powers of limited-life regulated entities
(A)

In general

Each limited-life regulated entity created under this subsection shall have all corporate powers
of, and be subject to the same provisions of law as,
the regulated entity in default or in danger of default to which it relates, except that—

86a
(i)

the Agency may—

(I)
remove the directors of a limitedlife regulated entity;
(II)
fix the compensation of members
of the board of directors and senior management, as determined by the Agency in its
discretion, of a limited-life regulated entity;
and
(III) indemnify the representatives for
purposes of paragraph (1)(B), and the directors, officers, employees, and agents of a
limited-life regulated entity on such terms
as the Agency determines to be appropriate;
and
(ii) the board of directors of a limited-life
regulated entity—
(I)
shall elect a chairperson who may
also serve in the position of chief executive
officer, except that such person shall not
serve either as chairperson or as chief executive officer without the prior approval of
the Agency; and
(II)
may appoint a chief executive officer who is not also the chairperson, except
that such person shall not serve as chief executive officer without the prior approval of
the Agency.
(B)

Stay of judicial action

Any judicial action to which a limited-life regulated entity becomes a party by virtue of its acquisition of any assets or assumption of any liabilities

87a
of a regulated entity in default shall be stayed
from further proceedings for a period of not
longer than 45 days, at the request of the limitedlife regulated entity. Such period may be modified upon the consent of all parties.
(10) No Federal status
(A)

Agency status

A limited-life regulated entity is not an agency,
establishment, or instrumentality of the United
States.
(B)

Employee status

Representatives for purposes of paragraph
(1)(B), interim directors, directors, officers, employees, or agents of a limited-life regulated entity
are not, solely by virtue of service in any such capacity, officers or employees of the United States.
Any employee of the Agency or of any Federal instrumentality who serves at the request of the
Agency as a representative for purposes of paragraph (1)(B), interim director, director, officer,
employee, or agent of a limited-life regulated entity shall not—
(i)
solely by virtue of service in any such
capacity lose any existing status as an officer or
employee of the United States for purposes of
title 5 or any other provision of law; or
(ii) receive any salary or benefits for service in any such capacity with respect to a
limited-life regulated entity in addition to such

88a
salary or benefits as are obtained through employment with the Agency or such Federal instrumentality.
(11) Authority to obtain credit
(A)

In general

A limited-life regulated entity may obtain unsecured credit and issue unsecured debt.
(B)

Inability to obtain credit

If a limited-life regulated entity is unable to obtain unsecured credit or issue unsecured debt, the
Director may authorize the obtaining of credit or
the issuance of debt by the limited-life regulated
entity—
(i)
with priority over any or all of the obligations of the limited-life regulated entity;
(ii) secured by a lien on property of the
limited-life regulated entity that is not otherwise subject to a lien; or
(iii) secured by a junior lien on property of
the limited-life regulated entity that is subject
to a lien.
(C)

Limitations

(i) 4

In general

The Director, after notice and a hearing,
may authorize the obtaining of credit or the issuance of debt by a limited-life regulated entity
that is secured by a senior or equal lien on
4

So in original.

No. cl. (ii) has been enacted.

89a
property of the limited-life regulated entity
that is subject to a lien (other than mortgages
that collateralize the mortgage-backed securities issued or guaranteed by an enterprise)
only if—
(I)
the limited-life regulated entity is
unable to otherwise obtain such credit or issue such debt; and
(II)
there is adequate protection of the
interest of the holder of the lien on the property with respect to which such senior or
equal lien is proposed to be granted.
(D)

Burden of proof

In any hearing under this subsection, the Director has the burden of proof on the issue of adequate protection.
(12) Effect on debts and liens

The reversal or modification on appeal of an authorization under this subsection to obtain credit or
issue debt, or of a grant under this section of a priority or a lien, does not affect the validity of any debt
so issued, or any priority or lien so granted, to an entity that extended such credit in good faith, whether
or not such entity knew of the pendency of the appeal,
unless such authorization and the issuance of such
debt, or the granting of such priority or lien, were
stayed pending appeal.

90a
( j)

Other Agency exemptions
(1)

Applicability

The provisions of this subsection shall apply with
respect to the Agency in any case in which the
Agency is acting as a conservator or a receiver.
(2)

Taxation

The Agency, including its franchise, its capital, reserves, and surplus, and its income, shall be exempt
from all taxation imposed by any State, county, municipality, or local taxing authority, except that any
real property of the Agency shall be subject to State,
territorial, county, municipal, or local taxation to the
same extent according to its value as other real property is taxed, except that, notwithstanding the failure
of any person to challenge an assessment under State
law of the value of such property, and the tax thereon,
shall be determined as of the period for which such
tax is imposed.
(3)

Property protection

No property of the Agency shall be subject to levy,
attachment, garnishment, foreclosure, or sale without the consent of the Agency, nor shall any involuntary lien attach to the property of the Agency.
(4)

Penalties and fines

The Agency shall not be liable for any amounts in
the nature of penalties or fines, including those arising from the failure of any person to pay any real
property, personal property, probate, or recording
tax or any recording or filing fees when due.

91a
(k)

Prohibition of charter revocation

In no case may the receiver appointed pursuant to
this section revoke, annul, or terminate the charter of an
enterprise.

